<html>
<title> - NOMINATIONS TO THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION, THE DEPARTMENT OF TRANSPORTATION, AND THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY</title>
<body><pre>[Senate Hearing 108-986]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-986
 
                NOMINATIONS TO THE NATIONAL AERONAUTICS
                AND SPACE ADMINISTRATION, THE DEPARTMENT
                OF TRANSPORTATION, AND THE METROPOLITAN
                     WASHINGTON AIRPORTS AUTHORITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and
                             Transportation

                         U.S. GOVERNMENT PRINTING OFFICE

91-247 PDF                       WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------
                                                                   Page
Hearing held on September 17, 2003...............................     1
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     2
    Prepared statement...........................................     3

                               Witnesses

Bhatia, Karan K., Assistant Secretary of Transportation for
  Aviation and International Affairs-Designate...................    14
    Prepared statement...........................................    16
    Biographical information.....................................    17
Brown, Gwendolyn, President's Nominee to be Chief Financial
  Officer, National Aeronautics and Space Administration.........     5
    Prepared statement...........................................     6
    Biographical information.....................................     7
Snelling, Charles Darwin, Nominee to be a Member of the
  Metropolitan Washington Airports Authority.....................    24
    Prepared statement...........................................    24
    Biographical information.....................................    25
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............     3

                                Appendix

Remarks by Hon. Rick Santorum introducing Charles Snelling.......    39
Response to written questions submitted by Hon. John McCain to
  Gwendolyn Brown................................................    39

 
                      NOMINATIONS TO THE NATIONAL


 
                 AERONAUTICS AND SPACE ADMINISTRATION,


 
                   THE DEPARTMENT OF TRANSPORTATION,


 
                    AND THE METROPOLITAN WASHINGTON


 
                           AIRPORTS AUTHORITY

                              ----------


                     WEDNESDAY, SEPTEMBER 17, 2003

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room
SR-253, Russell Senate Office Building, Hon. John McCain,
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN,
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good afternoon. The Commerce Committee meets
today to consider the qualifications of three individuals who
have been nominated by the President to serve the Nation in
very important posts.
    First, Ms. Gwendolyn Brown has been nominated to be Chief
Financial Officer (CFO) of the National Aeronautics and Space
Administration (NASA). Ms. Brown is currently serving as the
Deputy CFO for Financial Management at NASA.
    Second, Mr. Karan Bhatia has been nominated to be the
Assistant Secretary of Aviation and International Affairs at
the Department of Transportation. In his position, he will have
principal responsibility for the development, review, and
coordination of policy for international transportation and for
the development, coordination, and implementation of policy
relating to economic regulation of the airline industry.
    Finally, Mr. Charles D. Snelling has been nominated as a
Member of the Board of the Metropolitan Washington Airport
Authority (MWAA).
    As my colleagues are aware, we have votes beginning in a
very short period of time, and that's why I'd like to dispense
with my opening statement and recognize my two colleagues,
Senator Stevens and Senator Specter, who I think would have
opening remarks.
    Is Mr. Snelling here?
    Mr. Snelling. Yes.
    The Chairman. Please come up to the table, if you would,
Mr. Snelling, and drag a chair up there. And you're welcome.
Senator Specter is a very friendly man. He'll be glad to----
    [Laughter.]
    The Chairman.--have you sit next to him.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Good afternoon. The Commerce Committee meets today to consider the
qualifications of three individuals who have been nominated by the
President to serve the Nation in very important posts. First, Ms.
Gwendolyn Brown has been nominated to be Chief Financial Officer (CFO)
of the National Aeronautics and Space Administration (NASA). Ms. Brown
is currently serving as the Deputy CFO for Financial Management at
NASA.
    Over the years, NASA has been criticized for its extensive cost
overruns on many programs. This Committee has been amazed at the lack
of discipline in the financial management controls at NASA. Many times
in the past, the Congress only heard of major cost overruns when it
reached the point where significant modifications of the budget were
required. We will no longer tolerate such lax fiscal oversight nor risk
its related consequences. We look to the CFO to be forthcoming with the
Congress and to implement the necessary fiscal controls over its
programs.
    In addition, we anxiously await the Administration's estimates of
the activities necessary for the return to flight of the Space Shuttle
orbiters. It also is our understanding that NASA has yet to estimate
the costs and future budgetary impacts incurred by the International
Space Station program because of the grounding of the Space Shuttle
fleet. In the future, as we discuss the cost of returning the Shuttle
to flight, we also must consider the rising cost of the Space Station.
    Second, Mr. Karan Bhatia has been nominated to be the Assistant
Secretary of Aviation and International Affairs at the Department of
Transportation. In his position, he will have principal responsibility
for the development, review, and coordination of policy for
international transportation, and for the development, coordination,
and implementation of policy relating to economic regulation of the
airline industry. Mr. Bhatia has a strong and varied background in
commerce and aviation and we look forward to working with him on
competition and economic related issues in the aviation industry as
well as U.S./European Union aviation developments.
    Finally, Mr. Charles D. Snelling has been nominated as a member of
the board of the Metropolitan Washington Airports Authority (MWAA).
MWAA has oversight over Reagan National Airport and Dulles
International Airport. Our aviation industry is still in a precarious
state and these two important airports will need strong management. Let
me note that MWAA itself has been the subject of several contract award
lawsuits and investigations by the DOT IG and GAO on contracting
practices. I realize that one of the lawsuits have been dismissed
summarily, and MWAA has made significant changes in its contracting
practices after GAO's report; however, we must remain diligent in our
oversight in this area.
    This Committee takes its advice and consent role very seriously,
and I will note that each of the nominees has responded in detail to
the Committee's requests for biographical and financial data. I have
had the opportunity to review your responses to the Committee
questionnaire as well as pre-hearing questions, and I look forward to
moving your nominations quickly.
    I thank the nominees for being here today. I know your nomination
is a great honor, and that your families are very proud. Please feel
free to introduce any family members who are present here today before
you begin your remarks.

    The Chairman. So, Senator Stevens, if you'd like to go
first, and then Senator Specter, and then we'll have brief
opening statements from the witnesses.
    Senator Stevens?

                STATEMENT OF HON. TED STEVENS,
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, let me put my statement in
the record, if you will, and introduce to you Gwen Brown.
    The Chairman. Without objection.
    Senator Stevens. Let me introduce to you Gwen Brown. Gwen
has been a staff member of mine. She has distinguished herself
in her past career in the government. As my statement says, she
has received the honor of being Employee of the Year this past
year. Her father, who's here with her, is a great friend of
mine from Anchorage. I'm delighted that the President has
nominated Gwen.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Good afternoon. It's an honor to be able to introduce Gwen Brown
today. Gwen and I go all the way back to her days as a Legislative
Correspondent in my D.C. office. Gwen served on my staff for five years
and she was responsible for several important housing, taxation, and
economic development initiatives.
    Since then, Gwen has continued to serve the public with
distinction. She was a Senior Program Analyst with the Office of the
Under Secretary of Defense at the Pentagon.
    Currently she serves as Deputy Financial Officer for Financial
Management at NASA; her performance earned her NASA's Exceptional
Achievement Medal earlier this year. She will make an excellent Chief
Financial Officer.

    The Chairman. Thank you. We're always pleased to have the
under-represented State of Alaska----
    [Laughter.]
    The Chairman.--in an important position here.
    Senator Specter?

               STATEMENT OF HON. ARLEN SPECTER,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman.
    I'm delighted to be here to introduce Charles Snelling. He
has a graduate degree from Lehigh University in mining
engineering. He founded Cyrotherm, a pioneer in applied
thermodynamics. He's a director of numerous companies. He
served 4 years as the president of the Allentown City Council.
He was appointed by President Ford, in 1976, to the President's
Commission of Personnel Interchange. And he was later appointed
to serve on the U.S. Small Business Administration's National
Advisory Council, and appointed by Governor Ridge to be a
member of the Pennsylvania Aviation Advisory Committee.
    I've known Mr. Snelling for three decades. And sometimes
our appearances here are perfunctory, but this one is not. He
also has done enormous service for Senator Santorum and myself
on the Judicial Nominating Panel. He is a devoted public
servant, arduous, effective, and perhaps I should not emphasize
too much he's a good friend of mine, but he is.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Specter. I want
to thank both you and Senator Stevens for coming here and
introducing the witnesses today. I know you both have very
heavy schedules, and I think it's very helpful for the
Committee.
    I thank Senator Stevens and Senator Specter for being here.
    If it's agreeable to the witnesses at this time, I'd like
for you to introduce members of your family in the audience so
we can recognize them, since I know that all of them have been
very important in getting you where you are today.
    We'll begin with you, Ms. Brown.
    Ms. Brown. Great, thank you, Mr. Chairman.
    First, I would like to introduce my parents, Bill and
Sandra Sykes.
    The Chairman. Welcome.
    Ms. Brown. I also have secondary parents, being from Alaska
and living here in Washington, D.C., I have Colonel Paul and
Gwen Patton.
    The Chairman. Raise your hands, please? Thank you.
    Ms. Brown. I also have my loving----
    The Chairman. Would you stand, then? I couldn't see it.
    [Laughter.]
    The Chairman. Thank you. Welcome.
    Ms. Brown. I also have my godchildren here, Celina and Carl
Jerome Core. You two can stand up, because you probably won't
be able to see them, definitely.
    Hi, guys.
    The Chairman. Welcome. Thank you for coming today. I'm
sorry you had to miss school. I know it's a very great
imposition for you.
    [Laughter.]
    Ms. Brown. We're teaching them the legislative process
today.
    The Chairman. Good.
    Ms. Brown. Then we also have someone who has become quite a
part of my family, keeps me on track, and actually got me here
on time, which would be Aliza Margolies, which is my personal
assistant. So thank you.
    The Chairman. Thank you. Welcome.
    Welcome to all of you, especially your parents. I know this
is a very proud moment for you, and we're very pleased you
could be here today.
    Mr. Snelling?
    Mr. Snelling. Mr. Chairman, I'm glad to introduce my wife
of 52 years, Adrienne.
    The Chairman. Congratulations.
    Mr. Snelling. My daughter, Penny, who's a lawyer.
    The Chairman. Would you stand, please?
    Mr. Snelling. My assistant, Marianne Vogle.
    The Chairman. Welcome, and thank you. And I know this is a
proud time for you, as well.
    Mr. Bhatia?
    Mr. Bhatia. Thank you very much, Senator.
    I'd like to introduce my wife, Sara, my son, Alexander----
    [Laughter.]
    The Chairman. Welcome.
    Mr. Bhatia.--and my parents, Samir and Janice Bhatia. My
younger son, Teddy, I visited with extensively last night at
about the hour of 3 a.m., so I spared him from visiting us
today.
    The Chairman. It's an excellent experience for you.
    [Laughter.]
    The Chairman. Welcome, and welcome to your family members,
and especially your parents.
    Mr. Bhatia. Thank you.
    The Chairman. Well, thank you.
    I'd like to just make a couple of comments. Then we'll
proceed with opening statements. As I mentioned, we'll have a
vote starting very soon.
    Ms. Brown, I'm very concerned about the financial aspects
of our new challenges we face as a result of the Gehman
Commission recommendations, which Director O'Keefe has said
they accept in total. I think there's going to be significant
costs associated with that. We need to know those things, and
we look forward to hearing from you on that. There's going to
be some very tough decisions that are going to have to be made
about the future of manned spaceflight, the International Space
Station, and money will be a very--unfortunately, a very
important factor in that decisionmaking process, which I know
you can appreciate.
    Mr. Bhatia, we probably are facing challenges as far as
aviation as well as international affairs are concerned. We
continue to have threats to our Nation. We continue to have an
ailing aviation industry, even if our economy is recovering.
And we look forward to working with you very closely.
    Mr. Snelling, I'm sorry to tell you my relations with the
Metropolitan Washington Airports Authority has been less than
rosy.
    [Laughter.]
    The Chairman. On the issue of slots, I understand that you
will be making judgments on these issues. I trust that you will
make those decisions as you see best, and I thank you for your
willingness to serve on this very important--especially to us
Members of Congress--piece of real estate in the Washington,
D.C., area.
    So I congratulate you, and we look forward to bringing your
names forward for confirmation as quickly as possible.
    So, Ms. Brown, if you could abbreviate your opening
statement as much as possible, but don't leave out anything you
think we need to know, we'd appreciate it. We'll begin with
you.
    And your prepared statements will all be made part of the
record.
    Ms. Brown?

       STATEMENT OF GWENDOLYN BROWN, PRESIDENT'S NOMINEE

 TO BE CHIEF FINANCIAL OFFICER, NATIONAL AERONAUTICS AND SPACE
                         ADMINISTRATION

    Ms. Brown. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Committee, it is a pleasure
to be here this afternoon. I am extremely honored to be the
President's nominee as Chief Financial Officer for the National
Aeronautics and Space Administration in NASA's 45th year,
pioneering the future. If confirmed, I will enter the job fully
committed and dedicated to continuing managing NASA's financial
management operations with unfaltering diligence and integrity.
    It is a distinct honor for me to be introduced to the
Committee today by the President Pro Tem of the Senate, Senator
Ted Stevens. Early in my career, he taught me the lifelong
lessons about the value of public service. Now as I intend to
contribute to the agency's advancement of exploration and
discovery of humanity's newest frontier, I am honored that he
is here today.
    I am very pleased that my father, Bill Sykes, and mother,
Sandra Sykes, are sharing this special experience with me
today. I owe a lot to my father, including the fact that his
service in the United States Air Force brought our family to
Alaska. My father taught me the value of public service and has
been my constant and faithful guide throughout my Federal
career. From my mother, I learned the value of caring for
others and what it means to be a public servant. As a nurse
midwife, she traveled the bush planes throughout rural Alaska
to bring new lives into the world in places where medical care
was not readily available. She completed her career this year
by serving as a prison nurse, a job in which her expression of
respect and care may have helped more than a few individuals
get back on the right path in life.
    I have also been honored throughout my career to serve with
many distinguished people. Here today is one of my mentors,
Alvin Tucker, the former Deputy Chief Financial Officer for the
Department of Defense. He took a young lady from Alaska, showed
her the ropes, and taught me how government financial managers
provide judicious management of scarce taxpayer resources.
    I would also like to acknowledge the presence of Calvin
Springfield, a good friend and sage counsel to me for over many
years. I also had the benefit of working with many professional
individuals who have been instrumental in my career in leading
and guiding me--Colonel Paul and Gwen Patton, Gerald Parker,
Ermerdene Lee, Marlana Hunter, Daphne Jefferson, and Carolyn
Carmack--all of whom have played a part in formulating my goals
and vision for effectively managing in these challenging days
ahead for NASA.
    As I hope I have conveyed, these treasured friends and
family members exemplify qualities I plan to emulate in the
position of Chief Financial Officer. Accordingly, I would like
the Committee to know that I recognize the importance of
maintaining NASA's financial integrity as we safely return to
flight, continue our Nation's exploration and discovery of new
horizons, and produce tangible technological and economic
benefits for the American public. Effective financial
management is critical as we address both our challenges and
opportunities in the months and years ahead.
    Thank you.
    [The prepared statement and biographical information of Ms.
Brown follow:]

Prepared Statement of Gwendolyn Brown, President's Nominee to be Chief
    Financial Officer, National Aeronautics and Space Administration
    Mr. Chairman and Members of the Committee, it is a pleasure to be
here this afternoon. I am extremely honored to be the President's
nominee as Chief Financial Officer for the National Aeronautics and
Space Administration, in NASA's 45th year of pioneering the future. If
confirmed, I would enter the job fully committed and dedicated to
continue managing NASA's financial management operations with
unfaltering diligence and integrity.
    It is a distinct honor for me to be introduced to the Committee
today by the President Pro Temp of the Senate, Senator Ted Stevens.
Early in my career, he taught me the life-long lessons about the value
of public service. Now, as I intend to contribute to the Agency's
advancement of exploration and discovery of humanity's newest frontier,
I am honored that he is here today.
    I am very pleased that my father, Bill Sykes, and mother, Sandra
Sykes, are sharing this special experience with me today. I owe a lot
to my father, including the fact that his service in the United States
Air Force brought our family to Alaska. My father taught me the value
of public service and has been my constant and faithful guide
throughout my Federal career.
    From my mother, I learned the value of caring for others and what
it means to be a public servant. As a nurse midwife she traveled on
bush planes throughout rural Alaska to bring new lives into the world,
in places where medical care was not readily available. She completed
her career this year by serving as a Prison Nurse, a job in which her
expressions of respect and care may have helped more than a few
individuals get back on the right path in life.
    I have also been honored throughout my career to serve with many
distinguished people. Here today is one of my mentors, Alvin Tucker,
the former Deputy Chief Financial Officer for the Department of
Defense. He took a young lady from Alaska, showed her the ropes, and
taught me how Government financial managers provide judicious
management of scarce taxpayer resources. I would like to acknowledge
the presence of Calvin Springfield, a good friend and sage counsel to
me over many years. Also, I have had the benefit of working with many
professional individuals who have been instrumental in my career in
leading and guiding me--Lt. Colonel Paul and Gwen Patton, Gerald
Parker, Ermerdene Lee, Marlana Hunter, Daphne Jefferson, and Carolyn
Carmack, all of whom have played a part in formulating my goals and
vision to effectively manage in these challenging days ahead for NASA.
    As I hope I have conveyed, these treasured friends and family
members exemplify qualities I plan to emulate in the position of Chief
Financial Officer. Accordingly, I would like the Committee to know that
I recognize the importance of maintaining NASA's financial integrity as
we safely return to flight, continue our Nation's exploration and
discovery horizons, and produce tangible technological and economic
benefits for the American public. Effective financial management is
critical as we address both our challenges and opportunities in the
months and years ahead.
    My 17 years of public service and financial management experience,
have prepared me well, I believe, for the challenges I will face.
Further, I am honored that during Administrator Sean O'Keefe's tenure,
he has shown confidence in my abilities which has been reflected by the
important assignments he has bestowed upon me. After joining the Agency
as the Deputy Chief Financial Manager, Mr. O'Keefe ask me to take on
the challenge of leading the organization through its Fiscal Year 2002
audit. We recently achieved a clean opinion from the Government's
independent auditor. This improvement from the Agency's disclaimer of
opinion for its Fiscal Year 2001 financial statements was a first step
in improving NASA's financial credibility.
    In addition to achieving a clean opinion, the implementation of the
new NASA Core Financial Management Systems throughout NASA was our next
accomplishment. This entailed the consolidation and retirement of ten
legacy accounting systems at each of the respective ten centers into
one accounting system. I am pleased to report that as of July 2003, we
have fully implemented the Core Financial management module of NASA's
new Integrated Financial Management Program. I am confident that this
program will enhance NASA's ability to use internal financial
information to provide the Congress and the American public with
greater transparency, accountability and performance of NASA's use of
scarce public resources.
    These are just a few innovations that I am proud to have
contributed to in helping to strengthen NASA's financial management. I
believe we have taken the first step in a long process to restore
credibility in financial management at NASA. I am committed to
Administrator O'Keefe's goals and we plan to achieve them. I look
forward to the prospect of working with the Committee to continue the
enhancement of effective financial management of our Nation's
aeronautics and space activities and I am prepared to accept this
challenge.
    Thank you for the opportunity to appear before the Committee today.
I would be pleased to respond to any questions the Committee may have.
    Thank you.
                                 ______

                      a. biographical information
    1. Name (Include any former names or nick names used.): Gwendolyn
Brown; maiden name: Gwendolyn Sykes.
    2. Position to which nominated: Chief Financial Officer for the
National Aeronautics and Space Administration.
    3. Date of nomination: July 17, 2003.
    4. Address (List current place of residence and office addresses.):

        Residence: Information not released to the public.

        Office: National Aeronautics and Space Administration,
        Headquarters, Code B, 300 E Street SW, Washington, D.C. 30546-
        0001.

    5. Date and place of birth: September 20, 1965; West Point, New
York.
    6. Marital status: (Include maiden name of wife or husband's name.)

        Separated. Ex-Spouse name: Kelly Brown.

    7. Names and ages of children: (Include stepchildren and children
from previous marriages.)
    Not Applicable.
    8. Education: (List secondary and higher education institutions,
dates attended, degree received, and date degree granted.)

        The American University, The Key Executive Program, Washington,
        DC 20016, Public Administration, MPA, 2001.

        The Catholic University of America, Washington, D.C. 20064,
        Accounting/Minor English, BA, 1987.

        East Anchorage High School, Anchorage, Alaska 99503, May 1983.

    9. Employment record: (List all jobs held since college, including
the title or description of job, name of employer, location of work,
and dates of employment.)

        11/2002 to present: National Aeronautics and Space
        Administration, Deputy Chief Financial Officer for Financial
        Management, NASA HQ, Code B, 300 E Street SW, Washington, D.C.
        20546-0001; Employer: The Administrator for NASA, Mr. Sean
        O'Keefe.

        01/1998 to 10/2002: Department of Defense, Office of the Under
        Secretary of Defense (Comptroller), Program/Budget (Program and
        Financial Control), Program Analyst, GS-0343-15, 1100 Defense
        Pentagon, Washington, D.C. 20301-1100; Employer: Mr. James
        Dominy.

        06/1997 to 01/1998: Department of Defense, Office of the Under
        Secretary of Defense (Comptroller), Program/Budget (Program and
        Financial Control), Program Analyst, GS-0343-15, 1100 Defense
        Pentagon, Washington, D.C. 20301-1100; Employer: Ms. Carolyn
        Carmack (Retired).

        04/1996 to 06/1997: Department of Defense (Directorate for
        Information Technology and Financial Management), Management
        Analyst, GS-0343-14, 1100 Defense Pentagon, Washington, D.C.
        20301-1100; Employer:. Mr. Frank Egan (Retired).

        06/1992 to 04/1996: Department of Defense, Management Analyst,
        GS-343-09-13, 1100 Defense Pentagon, Washington, D.C. 20301-
        1100; Employer: Ms. Joan Freeman (Retired)

        04/1991 to 05/1992: Senator Ted Stevens--Alaskan Office,
        Legislative Research Assistant, 522 Hart Building, Washington,
        D.C. 20510; Employer: Ms. Carol White (Retired).

        05/1988 to 03/1991: Senator Ted Stevens--Alaskan Office,
        Special Project Coordinator, 522 Hart Building, Washington,
        D.C. 20510; Employer: Ms. Carol White (Retired).

        07/1987 to 04/1988: Defense Contract Audit Agency, Defense
        Contract Auditor, GS-07, Silver Springs, Maryland 21017;
        Employer: Ms. Dorothy Awishika.

        08/1983 to 05/1987: College student at the Catholic University
        of America.

        05/1983 to 07/1983: Senator Ted Stevens--Alaskan Office, High
        School Intern Program, 522 Hart Building, Washington, D.C.
        20510; Employer: Ms. Carol White (Retired).

    10. Government experience: (List any advisory, consultative,
honorary or other part-time service or positions with Federal, State,
or local governments, other than those listed above.)
    Not Applicable.
    11. Business relationships: (List all positions held as an officer,
director, trustee, partner, proprietor, agent, representative, or
consultant of any corporation, company, firm, partnership, or other
business enterprise, educational or other institution.)

        American Society of Military Comptrollers, 1992 to current.
        Held the position of the Office of the Under Secretary of
        Defense (Comptroller) Vice President for the Washington Chapter
        of the American Society of Military Comptrollers.

        Association of Government Accountants, 1996 to current. Became
        a Certified Government Financial Manager in September of 1996.

    12. Memberships: (List all memberships and offices held in
professional, fraternal, scholarly, civic, business, charitable and
other organizations.)

        American Society of Military Comptrollers, 1992 to current.
        Held the position of the Office of the Under Secretary of
        Defense (Comptroller) Vice President for the Washington Chapter
        of the American Society of Military Comptrollers.

        Association of Government Accountants, 1996 to current. Became
        a Certified Government Financial Manager in September of 1996.

        Member of the Department of Defense Senior Professional Women's
        Organization since 1997 to current.

        Member of the Alaska State Society since 1990.

        Member of the Republican Women of Capital Hill member from May
        1988 to March 1991.

    13. Political affiliations and activities:

        (a) List all offices with a political party which you have held
        or any public office for which you have been a candidate: Not
        Applicable.

        (b) List all memberships and offices held in and services
        rendered to all political parties or election committees during
        the last 10 years: Not Applicable.

        (c) Itemize all political contributions to any individual,
        campaign organization, political party, political action
        committee, or similar entity of $500 or more for the past 10
        years: Not Applicable.

    14. Honors and awards: (List all scholarships, fellowships,
honorary degrees, honorary society memberships, military medals and any
other special recognitions for outstanding service or achievements.)

        Recipient of NASA's Exceptional Achievement Medal (July 9,
        2003).

        Letter of Appreciation from the Chief Financial Executive for
        the National Imagery and Mapping Agency (NIMA) for my support
        during the final phase of adjusting NIMA's budget (February 5,
        2002).

        Letter of Commendation from the Department of Defense, Office
        of the Inspector General for expert assistance during the
        preparation of the President's Budget (January 11, 2002).

        Letter of Appreciation from the Under Secretary of Defense
        (Comptroller) for selfless service in the completing the Fiscal
        Year 2002 amended budget (July 30, 2001).

        Certificate of Appreciation for the Coordination of the
        Protocol Committee for the 1999 Spring Symposium for the
        American Society of Military Comptrollers.

        Elected in 1997 and continue to hold the position of the Office
        of the Under Secretary of Defense (Comptroller) Vice President
        for the Washington Chapter of the American Society of Military
        Comptrollers.

    15. Published writings: (List the titles, publishers, and dates of
books, articles, reports, or other published materials which you have
written.)
    Not Applicable.
    16. Speeches: Provide the Committee with two copies of any formal
speeches you have delivered during the last 5 years, which you have,
copies of on topics relevant to the position for which you have been
nominated.
    I have provided informal informational speeches at the American
Society of Military Comptrollers on Budgetary and Department of Defense
related initiatives.
    17. Selection:
    (a) Do you know why you were selected for the position to which you
have been nominated by the President?
    Yes, I am currently the Deputy Chief Financial Officer for
Financial Management and have excelled in my current position. I was
recommended by the current Administrator, Sean O'Keefe to take on this
challenge for the National Aeronautics and Space Administration.
    (b) What in your background or employment experience do you believe
affirmatively qualifies you for this particular appointment?
    I have over 16 years of financial, managerial and technical
experience related to the Chief Financial Officer position. Throughout
my government career I have been focused on development and
streamlining efforts to improve the financial viability, integrity and
accountability for the Federal Government. Educationally, I received an
undergraduate degree with an emphasis in accounting and then continued
on to receive a Masters in Public Administration. These academic
pursuits have provided me with a foundation by which to work within the
public sector to make positive changes and enhancements in public
sector financial management.
                   b. future employment relationships
    1. Will you sever all connections with your present employers,
business firms, business associations, or business organizations if the
Senate confirms you?
    Not Applicable. As I am currently serving as the Deputy Chief
Financial Officer for Financial Management for the National Aeronautics
and Space Administration.
    2. Do you have any plans, commitments, or agreements to pursue
outside employment, with or without compensation, during your service
with the government? If so, please explain.
    No, I do not have any plans, commitments, or agreements to pursue
outside employment, with or without compensation, during my service
with the government.
    3. Do you have any plans, commitments, or agreements after
completing government service to resume employment, affiliation, or
practice with your previous employer, business firm association, or
organization?
    No, I do not have any plans, commitments or agreements after
completing government service to resume employment, affiliation, or
practice with my current employer.
    4. Has anybody made a commitment to employ your services in any
capacity after you leave government service?
    No one has made any commitments to employ my services in any
capacity after I complete my commitment within government service.
    5. If confirmed, do you expect to serve out your full term or until
the next Presidential election, whichever is applicable?
    Yes, I do expect to serve out my full term or until the next
Presidential election, whichever is applicable.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation
agreements, and other continuing dealings with business associates,
clients, or customers.
    I do not have any financial arrangements, deferred compensation
agreements, or any other dealings with business associates, clients, or
customers.
    2. Indicate any investments, obligations, liabilities, or other
relationships, which could involve potential conflicts of interest in
the position to which you have been nominated.
    I do not have any investments, obligations, liabilities, or other
relationships, which could involve a potential conflict of interest in
the position for which I have been nominated.
    3. Describe any business relationship, dealing, or financial
transaction which you have had during the last 10 years, whether for
yourself, on behalf of a client, or acting as an agent, that could in
any way constitute or result in a possible conflict of interest in the
position to which you have been nominated.
    I have not had any business relationship, dealings, or financial
transactions during the last 10 years that could constitute or result
in a possible conflict of interest in the position for which I have
been nominated.
    4. Describe any activity during the past 10 years in which you have
engaged for the purpose of directly or indirectly influencing the
passage, defeat, or modification of any legislation or affecting the
administration and execution of law or public policy.
    Not applicable.
    5. Explain how you will resolve any potential conflict of interest,
including any that may be disclosed by your responses to the above
items. (Please provide a copy of any trust or other agreements.)
    As I have not identified any potential conflict of interest and do
not have any trust agreements in my name.
    6. Do you agree to have written opinions provided to the Committee
by the designated agency ethics officer of the agency to which you are
nominated and by the Office of Government Ethics concerning potential
conflicts of interest or any legal impediments to your serving in this
position?
    To the best of my ability, I agree to provide written opinions to
the Committee by the designated Agency Ethics Officer of the Agency to
which I am nominated and by the Office of Government Ethics concerning
potential conflicts of interest or any legal impediments that may
hinder me serving in this position for which I am being nominated.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics
by, or been the subject of a complaint to any court, administrative
agency, professional association, disciplinary committee, or other
professional group? If so, please explain.
    No, I have never been disciplined or cited for a breach of ethics
by, or been the subject of a complaint to any court, administrative
agency, professional association, disciplinary committee or any other
professional group.
    2. Have you ever been investigated, arrested, charged, or held by
any Federal, State, or other. law enforcement authority for violation
of any Federal, State, county, or municipal law, regulation, or
ordinance, other than for a minor traffic offense? If so, please
explain.
    No, I have never been investigated, arrested, charged, or held by
any Federal, State, or other law enforcement authority for violation of
any Federal, State, county or municipal law, regulation, or ordinance,
other than for a minor traffic offense.
    3. Have you or any business of which you are or were an officer
ever been involved as a party in an administrative agency proceeding or
civil litigation? If so, please explain.
    Not applicable.
    4. Have you ever been convicted (including pleas of guilty or nolo
contendere) of any criminal violation other than a minor traffic
offense? If so, please explain.
    No, I have never been convicted (including pleas of guilty or nolo
contendere) of any criminal violation other than a minor traffic
offense.
    5. Please advise the Committee of any additional information,
favorable or unfavorable, which you feel should be disclosed in
connection with your nomination.
    I do not have any additional information, favorable or unfavorable,
which I feel should be disclosed in connection with my nomination.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with
deadlines for information set by congressional committees?
    Yes, if confirmed I will work within my Agency to ensure compliance
with deadlines for information set by the congressional committees are
adhered to and that the agency responds in a timely manner to all
request.
    2. Will you ensure that your department/agency does whatever it can
to protect congressional witnesses and whistle blowers from reprisal
for their testimony and disclosures?
    Yes, if confirmed I will ensure within my Agency we protect
congressional witnesses and whistle blowers from reprisal for their
testimony and disclosures.
    3. Will you cooperate in providing the Committee with requested
witnesses, including technical experts and career employees, with
firsthand knowledge of matters of interest to the Committee?
    Yes, I will work with the Committee and my agency to ensure that
requested witnesses, including technical experts and career employees,
with firsthand knowledge of matters of interest to the Committee are
available and ready to meet the needs of the requesting committee.
    4. Please explain how if confirmed, you will review regulations
issued by your department/agency, and work closely with Congress, to
ensure that such regulations comply with the spirit of the laws passed
by Congress.
    If confirmed, I will make it a priority within my organization to
ensure that the spirit of laws passed by congress are adhered to and
properly implemented within my Agency. I will keep abreast of emerging
congressional requirements whether they are in congressional language
or report language. If a discrepancy should present itself, then I will
quickly notify the Committee or member who sponsored the legislation to
request additional information as to the intent of said law or report
language in order to ensure proper execution within my Agency.
    5. Are you willing to appear and testify before any duly
constituted committee of the Congress on such occasions as you may be
reasonably requested to do so?
    Yes, if confirmed I would consider it my duty to appear and testify
as requested by any duly constituted committee of Congress.
                  f. general qualifications and views
    1. How does your previous professional experiences and education
qualify you for the position for which you have been nominated?
    I have over 16 years of financial, managerial and technical
experience related to the Chief Financial Officer position. Throughout
my government career, I have been focused on development and
streamlining efforts to improve the financial viability, integrity and
accountability for the Federal Government. Educationally, I received an
undergraduate degree with an emphasis in accounting and then continued
to receive a Masters in Public Administration. These academic pursuits
have provided me with a foundation by which to make positive changes
and enhancements in public sector financial management.
    2. Why do you wish to serve in the position for which you have been
nominated?
    The National Aeronautics and Space Administration (NASA) is on the
cutting edge of making major improvements in their financial management
processes. As the Deputy Chief Financial Officer for Financial
Management, I have been instrumental in restoring the agency's
financial integrity by obtaining a clean audit opinion from external
auditors for Fiscal Year 2002. With my leadership the agency is
currently on track to not only keep the clean opinion but also to have
Fiscal Year 2003 financial statements audited by November 15, 2003,
which is two months earlier than required. It is my goal to ensure
timely, accurate budgeting and reporting of information in order to
support the mission of NASA.
    3. What goals have you established for your first two years in this
position, if confirmed?
    Within the first two years of my confirmation I plan to continue my
efforts to help shape and transform the financial management within the
National Aeronautics and Space Administration (NASA). For instance, I
am the Chair of the NASA Full Cost Committee, which is in the process
of implementing full cost budgeting and execution, beginning in Fiscal
Year 2004. Currently, we are on target to meet our goals and have
kicked off several' initiatives within NASA to ensure better
communication of the business practices and benefits of operating under
a full cost environment.
    We have established a collaborative working environment with the
NASA Inspector General, our external auditors and the Office of
Management and Budget in order to e sure the financial integrity of
NASA. If confirmed as the Chief Financial Officer, I will continue to
require a robust review of our financial processes and financial
records to ensure we are executing our appropriations in accordance
with the intent of Congress and the American Public.
    4. What skills do you believe you may be lacking which may be
necessary to successfully carry out this position? What steps can be
taken to obtain those skills?
    I believe that I possess the knowledge, skills and ability to
effectively lead as the National Aeronautics and Space Administration
(NASA) Chief Financial Officer. I am a continual learner and have the
dedication and desire to continue to hone my skills in order to meet
any new and emerging challenges. I will continue to build strong ties
within the financial management community to ensure that as new
initiatives are being formulated, NASA as an organization is in the
position to take the lead in integrating them into our current
financial management processes.
    5. Please discuss your philosophical views on the role of
government. Include a discussion of when you believe the government
should involve itself in the private sector, when society's problems
should be left to the private sector, and what standards should be used
to determine when a government program is no longer necessary.
    I believe that the purpose of the government is to serve the best
interest of the people. Whenever a commercial or private force acts
contrary to these interests in a manner that cannot be remedied by the
people, then it is the responsibility of the government to intercede on
their behalf. However when a problem can be solved with a private
sector solution the government should not interfere, given that in most
cases the private sector is best positioned to act efficiently and in a
market-oriented manner. Whenever a government program ceases to serve
the public interest or can be administered by a viable private sector
counterpart then it is no longer necessary and should be eliminated.
    6. Describe the current mission, major programs, and major
operational objectives of the department/agency to which you have been
nominated.
    The National Aeronautics and Space Administration (NASA) is the
United States' leading organization for research and development in
aeronautics and space. NASA strives to understand and protect our
planet, explore the universe and search for life, and to inspire the
next generation of explorers. NASA's mission is carried out by five
distinct, yet interrelated enterprises: The Space Science enterprise
focuses on solar system exploration, the structure and evolution of the
universe, and the astronomical search for origins; the Earth Science
enterprise is dedicated to understanding our planet and applying Earth-
system science to improving life on Earth; the Biological and Physical
Research, enterprise conducts research to address the opportunities and
challenges provided by the space environment and human exploration of
space; the Aerospace Technology enterprise plays a key role in creating
a safer more efficient air transportation system, increasing
performance of military aircraft and enhancing the Nation's security
through its partnerships with the Department of Defense (DOD) and the
Federal Aviation Administration (FAA); and the Education enterprise is
dedicated to encouraging excellence at all levels.
    7. What do you believe to be the top three challenges facing the
department/agency and why?
    The top three challenges facing the National Aeronautics and Space
Administration (NASA) are fiscal responsibility, ensuring the return to
flight of the space shuttle program, and the continued development of
NASA's unique capabilities to strengthen America. NASA must strive to
efficiently and effectively use its fiscal and human resources to
support exploration and discovery.
    8. In reference to question number six, what factors in your
opinion have kept the department/agency from achieving its missions
over the past several years?
    I believe that the National Aeronautics and Space Administration
(NASA) has effectively achieved its mission over the last several
years. NASA continues to improve and enhance financial management
processes, as evidenced by the clean audit opinion for Fiscal Year
2002. However, we continue to move forward with innovative financial
management processes that will allow us to make greater strides
throughout NASA's strategic enterprises.
    9. Who are the stakeholders in the work of this department/agency?
    The National Aeronautics and Space Administration (NASA)
stakeholders include the American public who benefit from the
innovations and discoveries of the agency, the Congress, the Office of
Management and Budget, NASA employees, the education community,
external auditors, and the various vendors and suppliers that support
the agency's mission.
    10. What is the proper relationship between the position to which
you have been nominated, and the stakeholders identified in question
number nine?
    I am accountable to each of these stakeholders. As a part of my
fiduciary responsibilities under the Chief Financial Officers' Act, it
is my responsibility to ensure that NASA hold itself to the highest
level of financial management integrity in order to continue to garner
the support and trust of our key stakeholders so that we can continue
to meet our mission and goals.
    11. The Chief Financial Officers' Act requires all government
departments and agencies to develop sound financial management
practices.
    (a) What do you believe are your responsibilities, if confirmed, to
ensure that your department/agency has proper management and accounting
controls?
    As the Chief Financial Officer for the National Aeronautics and
Space Administration (NASA), it is my responsibility is to manage the
day-to-day financial operations, direct the preparation and submission
of annual financial and budget materials and related reports, and
coordinate the agency's financial management activities with other
related Federal agencies.
    (b) What experience do you have in managing a large organization?
    Currently as the Deputy Chief Financial Officer for Financial
Management, I am responsible for the day to day management of the
financial operations of the National Aeronautics and Space
Administration. This includes ten field centers and one headquarters
operation. I approve the provide oversight and financial management of
Agency resources relating to programs and operations, ensuring
strategic alignment with Agency vision and mission, including all
resources, aspects of the planning, programming, and budgeting process.
    While at the Department of Defense I was responsible for the
management of the department financial reporting as it related to the
preparation of the prior year column of the President's Budget. This
included working on a day to day basis with three field accounting
centers and a headquarters operations to ensure that the Department's
financial information was properly reported in accordance with the
applicable congressional mandates as well as regulations proffered by
the Office of Management and Budget and the Department of Treasury.
    12. The Government Performance and Results Act requires all
government departments and agencies to identify measurable performance
goals and to report to Congress on their success in achieving these
goals.
    (a) What benefits, if any, do you see in identifying performance
goals and reporting on progress in achieving those goals?
    Currently, the President's Management Agenda is the performance
indicator for the National Aeronautics and Space Administration (NASA).
It has been a significant guide for ensuring that we as leaders stay
focused and attuned to executing our programs as directed by Congress
and the American Public.
    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps
include the elimination, privatization, downsizing, or consolidation of
departments and/or programs?
    The current thinking in this area is not to be punitive in our
response to Agencies who fail to improve according to the President's
Management Agenda but rather outline way in which to assist the agency
in focusing their efforts to show measurable progress towards achieving
those performance goals. This not only assists the agency but also
allows for the agency to begin embracing the process of performance
metrics as a means to highlight deficiencies and to recognize progress.
    (c) What performance goals do you believe should be applicable to
your personal performance, if confirmed?
    My personal goal since I came to the National Aeronautics and Space
Administration has been to improve the financial integrity, delivery,
and operations of this agency. The integrity has been re-established
with the ``clean'' audit opinion, I was able to provide much-needed
leadership in order to guide the agency and its external auditors
through the Fiscal Year 2002 audit process.
    13. Please describe your philosophy of supervisor/employee
relationships. Generally, what supervisory model do you follow? Have
any employee complaints been brought against you?
    I follow the belief of a high performing organization. I
continually encourage my staff at all levels to involve themselves in
continual learning and upgrading of their knowledge, skills and
abilities. I strive extremely hard within my organization to ensure a
collaborative work environment not only internally but also externally.
It is my personal goal to have an organization of hardworking,
knowledgeable and proactive individuals, which members in the financial
management community turn to as a source of information and would
actively solicit for their talent. To date, I have not had any
employees bring a complaint against myself for the actions taken within
my organization.
    14. Describe your working relationship, if any, with the Congress.
Does your professional experience include working with committees of
Congress? If yes, please explain.
    In my current capacity, I have not had the opportunity to engage
Congress. However, during my career I have had the opportunity to work
for Senator Ted Stevens on his personal staff. On several occasions my
job required that I work with several of the committees that Senator
Stevens either chaired or was a member of the Committee.
    15. Please explain what you believe to be the proper relationship
between yourself, if confirmed, and the Inspector General of your
department/agency.
    If confirmed, my relationship with the Inspector General for the
National Aeronautics and Space Administration will be a collaborative
effort. It is the Inspector General's role to ensure that agency is
following Congressional mandates and to assist the agency in its
efforts in meeting its mission. To date, we have been successful in
developing a workable audit plan with input from the Inspector General
and our external auditors. The Inspector General has been cautiously
optimistic which has helped in our efforts to ensure a favorable
outcome.
    16. In the areas under the department/agency's jurisdiction to
which you have been nominated, what legislative action(s) should
Congress consider as priorities? Please state your personal views.
    Continue to support the Agency in its efforts to ``Return to
Flight.'' This is key to all of the missions and goals that the Agency
has set for itself and provides significant discoveries not only for
the Agency but also for the Nation as a whole. Congress should continue
to support the Agency's implementation of the Working Capital Fund
(WCF). In the Fiscal Year 2003 Appropriation Act, Congress demonstrated
its support of this initiation by approving the establishment of the
WCF. The Agency needs your continued support for successful
implementation. The first step would be for the Authorization Committee
to authorize the Program. In the 2003 budget, the Appropriation
Committee established the WCF but it was excluded from the
Authorization Bill.
    17. Within your area of control, will you pledge to develop and
implement a system that allocates discretionary spending in an open
manner through a set of fair and objective established criteria? If
yes, please explain what steps you intend to take and a time frame for
their implementation. If not, please explain why.
    Yes, I have taken significant steps towards implementing a single
financial management system throughout the National Aeronautics and
Space Administration (NASA). The Core Finance module has been fully
implemented as of June 23, 2003. We are on track to complete the full
rollout of the Integrated Financial Management Program (IFMP) by Fiscal
Year 2006.

    The Chairman. Thank you very much, Ms. Brown.
    Mr. Bhatia?

      STATEMENT OF KARAN K. BHATIA, ASSISTANT SECRETARY OF

TRANSPORTATION FOR AVIATION AND INTERNATIONAL AFFAIRS-DESIGNATE

    Mr. Bhatia. Thank you, Mr. Chairman.
    It's a tremendous honor to have been nominated by President
Bush and to appear before you today. And, if confirmed, I look
forward to joining Secretary Mineta and the superb team that he
has assembled at the Department of Transportation, and to
working very closely with you, the staffs of the Members of
this Committee, and your staffs.
    Thirty-eight years ago, my parents immigrated to the United
States, and they arrived in New York with hopes and dreams like
those of many previous generations of immigrants to this
country. Unlike earlier generations, however, my parents
arrived not by boat, but by aircraft, as have tens of thousands
of immigrants after them; and, thus, began a special connection
between my family and commercial aviation.
    As I was growing up, we would regularly visit relatives
overseas, and there was no greater thrill than going to the
airport, collecting airline schedules or trying to identify the
liveries of carriers from all over the world. For me, air
transportation meant bringing people together and exposing them
to new places, new ideas, and new experiences, and it still
carries, for me, that meaning today.
    As an undergraduate and graduate student in international
relations, I became deeply interested in the web of economic
ties that bind countries together, and became particularly
interested in transportation. After graduating from law school
and clerking for a year, I joined a Washington D.C. law firm,
where for 7 years my practice consisted of international
regulatory and transactional matters, with a particular focus
on aviation.
    Two years ago, I left the private practice of law and
entered government to serve in the Department of Commerce,
first as Chief Counsel to the Bureau of Export Administration,
and then as Deputy Under Secretary for Industry and Security. I
believe this experience has helped prepare me for the position
to which I've been nominated. It not only offered me the
opportunity to gain experience managing an Executive Branch
agency, but also directly exposed me to issues that arise where
trade and business intersect with security. And I come away
from that experience more convinced than ever that security and
safety are not pursued at the expense of business, but rather
that the two are mutually dependent. A healthy industry depends
upon security; and security, in turn, requires a healthy
industry.
    Seeking to secure a safe and secure aviation system and to
promote a healthy aviation industry are, of course, two of the
fundamental issues that confront the Department. They are
joined by many others, including ensuring the accessibility of
air transportation, increasing the opportunities to American
carriers and communities for greater international services,
developing the country's aviation infrastructure, preserving
competition while avoiding needless regulation, allocating
scarce aviation-related resources in a way that is fair,
efficient, and in the best interest of consumers, and seeking
to ensure that air transportation functions as an engine of
economic and jobs growth.
    These issues are not easy. They befit an industry that is
in one of the most challenging and dynamic periods of its
existence. Nonetheless, I look forward to tackling them with
enthusiasm. And I commit to you, Senator, that, if confirmed, I
will approach these and all other issues that come before me
with an open mind, that I will seek to consider fairly and
completely the interests of all affected stakeholders, and
that, as charged by statute, President Bush, and Secretary
Mineta, personally, I will always seek to do what is in the
best interest of the American public.
    Thank you.
    [The prepared statement and biographical information of Mr.
Bhatia follow:]

     Prepared Statement of Karan K. Bhatia, Assistant Secretary of
    Transportation for Aviation and International Affairs-Designate
    Thank you, Mr. Chairman, Senator Hollings, and Members of the
Committee.
    It is a tremendous honor to have been nominated by President Bush
and to appear before you today. If confirmed, I look forward to joining
Secretary Mineta and the superb team he has assembled at the Department
of Transportation, and to working closely with you and your staffs.
    With your indulgence, I would like to recognize and express my
appreciation to my family--my wife, Sara, and my sons, Alexander and
Teddy. I would also like to recognize my parents, Samir and Janice
Bhatia. Thirty-eight years ago, my parents immigrated to the United
States. They arrived in New York with hopes and dreams much like those
of many previous generations of immigrants to this country. Unlike
earlier generations, however, my parents arrived not by boat, but by
aircraft--as have tens of thousands of immigrants after them. Thus
began a special connection between me and my family and commercial
aviation.
    As I was growing up, we would regularly visit relatives overseas.
There was no greater thrill than going to the airport, collecting
airline schedules or trying to identify the liveries of carriers from
all over the world. For me, air transportation meant bringing people
together and exposing them to new places, new ideas, and new
experiences. It still carries that meaning for me today.
    As an undergraduate and graduate student in International
Relations, I became deeply interested in the web of economic ties that
bind countries together, and became particularly interested in
transportation. After graduating from law school and clerking for a
year, I joined a Washington D.C. law firm, where for seven years my
practice consisted of international regulatory and transactional
matters, with a particular focus on aviation.
    This experience has, I believe, given me a solid foundation upon
which to approach the issues that confront the Office of Aviation and
International Affairs. It exposed me to aviation laws, regulations, and
policies, and to many of the institutions that shape and affect them.
It also made me keenly aware of how the Department of Transportation's
activities affect the lives and livelihoods of many businesses and
individuals.
    Two years ago, I left the private practice of law and entered
government to serve in the Department of Commerce--first as Chief
Counsel of the Bureau of Export Administration, and then as Deputy
Under Secretary for Industry and Security. I believe that this
experience has also helped prepare me for the position to which I have
been nominated. It not only offered me the opportunity to gain
experience managing an Executive Branch agency, but also directly
exposed me to issues that arise where trade and business intersect with
security. I come away from that experience more convinced than ever
that safety and security are not pursued at the expense of business,
but rather, that the two are mutually dependent--a healthy industry is
dependent upon security, and security in turn requires a healthy
industry.
    Seeking to ensure a secure and safe aviation system and to promote
a healthy aviation industry are, of course, two of the fundamental
issues that confront the Department. They are joined by many others--
including ensuring the accessibility of air transportation, increasing
the opportunities available to American carriers and communities for
greater international services, developing the country's aviation
infrastructure, preserving competition while avoiding needless
regulation, allocating scarce aviation-related resources in a way that
is fair, efficient, and in the best interests of consumers, and seeking
to ensure that air transportation functions as an engine of economic
and jobs growth.
    These issues are not easy--they befit an industry that is in one of
the most challenging and dynamic periods of its existence. Nonetheless,
I look forward with enthusiasm to tackling them. And I commit to you
that, if confirmed, I will approach these and all other issues that
come before me with an open mind, that I will seek to consider fairly
and completely the interests of all affected stakeholders, and that--as
charged by statute, President Bush, and Secretary Mineta personally--I
will always seek to do what is in the best interest of the American
public.
    Again, I thank you for the opportunity to appear before you today,
and look forward to answering any questions that you may have.
                                 ______

                      a. biographical information
    1. Name: (Include any former names or nick names used.) Karan
Krishna Bhatia.
    2. Position to which nominated: Assistant Secretary of
Transportation for Aviation and International Affairs.
    3. Date of nomination: September 3, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: U.S. Department of Commerce, Room 3892, 1401
        Constitution Avenue, NW, Washington, D.C. 20230.

        After September 8, 2003, I will work as a consultant at the
        U.S. Department of Transportation, where my work address will
        be: U.S. Department of Transportation, Room 10228, 400 Seventh
        Street, SW, Washington, D.C. 20590.

    5. Date and place of birth: August 19, 1968; Washington, D.C.
    6. Marital status: (Include maiden name of wife or husband's name.)

        Married. Wife's maiden name: Sara Ruth Levine.

    7. Names and ages of children: (Include stepchildren and children
from previous marriages.)

        Alexander Daniel Madan Bhatia (age 4) Theodore William Bhatia
        (age 19 months)

    8. Education: (List secondary and higher education institutions,
dates attended, degree received and date degree granted.)

        Columbia University Law School (attended 08/1990-05/1993;
        received J.D. degree in 05/1993).

        London School of Economics (attended 09/1989-07/1990; received
        M.Sc. degree in 09/1990).

        Princeton University (attended 09/1985-06/1989; received A.B.
        degree in 06/1989).

        Walt Whitman High School, Bethesda, Maryland (attended 09/1981-
        06/1985; received high school diploma in 06/1985).

    9. Employment record: (List all jobs held since college, including
the title or description of job, name of employer, location of work,
and dates of employment)

        Deputy Under Secretary of Commerce for Industry and Security;
        U.S. Department of Commerce; Washington, D.C.; 06/2002-date.

        Senior Advisor to the Under Secretary of Commerce for Industry
        and Security; U.S. Department of Commerce; Washington, D.C.;
        03/2002-06/2002.

        Chief Counsel for Export Administration; U.S. Department of
        Commerce; Washington, D.C.; 07/2001-02/2002.

        Attorney; Wilmer, Cutler & Pickering; Washington, D.C.; 10/
        1994-07/2001.

        Judicial Law Clerk; Judge Milton Pollack (SDNY); New York, NY;
        09/1993-09/1994.

        Part-time law clerk; Borker & Sussman; New York, NY; 06/1993-
        09/1993.

        Summer Associate; Wilmer, Cutler & Pickering; Washington, D.C.;
        05/1992-08/1992.

        Summer Associate; Meyer, Hendricks, Victor, Osborne & Maledon;
        Phoenix, AZ; 06/1991-08/1991.

        Adjunct Professor; Georgetown University Law Center;
        Washington, D.C.; 1/2000-date.

    10. Government experience: (List any advisory, consultative,
honorary or other part-time service or positions with Federal, State,
or local governments, other than those listed above.)
    None, other than that listed in #9 above.
    11. Business relationships: (List all positions held as an officer,
director, trustee, partner, proprietor, agent, representative, or
consultant of any corporation, company, firm, partnership, or other
business enterprise, educational or other institution.)
    I was a partner at Wilmer, Cutler & Pickering (listed in #9 above)
from 1/2001 to 7/2001 (when I withdrew from the firm to join the
government).
    I have been an Adjunct Professor at Georgetown University (listed
in #9 above), co-teaching a course on International Civil Litigation
from 1/2000 to date. (The course is taught one evening per week, each
spring semester. However, it will not be offered in the spring of
2004.)
    12. Memberships: (List all memberships and offices held in
professional, fraternal, scholarly, civic, business, charitable and
other organizations.)

        Council on Foreign Relations

        New York Bar

        D.C. Bar

        American Bar Association

        Republican National Lawyers Association

        Carderock Springs Swim Club (Bethesda, Maryland)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or
any public office for which you have been a candidate.
    None
    (b) List all memberships and offices held in and services rendered
to all political parties or election committees during the last 10
years.
    I performed volunteer services for Lawyers for Bush Cheney during
2000.
    (c) Itemize all political contributions to any individual, campaign
organization, political party, political action committee, or similar
entity of $500 or more for the past 10 years.
    One (1) contribution of $500 to Rep. Dennis Hastert (2000)
    14. Honors and awards: (List all scholarships, fellowships,
honorary degrees, honorary society--memberships, military medals and
any other special recognitions for outstanding service or
achievements.)

        Global Organization of People of Indian Origin (GOPIO) and
        Global Indian Entrepreneurs Conference Award for Political and
        Business Achievements (September 2002).

        Woodrow Wilson Senior Thesis Prize for Princeton University
        Senior Thesis (1989).

        Van de Velde Award for Princeton University Junior Paper
        (1988).

    15. Published writings: (List the titles, publishers, and dates of
books, articles, reports, or other published materials which you have
written.)

        ``Regulating Rates,'' Airport Finance & Development (co-
        authored with Jeffrey N. Shane) (1999).

        ``Republican Reform of Government,'' 93 Columbia Law Review
        1300 (1993).

        ``Yugoslavia's Centrifugal Forces,'' Christian Science Monitor,
        p. 13 (Nov. 16, 1988).

        ``The Reluctant Cowboy,'' Policy Review, p. 54 (Fall 1988).

        ``Avoiding Turkish Tragedy,'' The Princeton Tory, p. 28 (March
        1986).

        ``The Dishonest Politics of Hide and Speak,'' The Princeton
        Tory, p. 27 (May 1986).

        ``Glasnost The Big Lie,'' The Princeton Tory, p. 18 (May 1987).

        ``For Whom the Bell Tolls,'' The Princeton Tory, p. 6
        (September 1987).

        ``The Partisan Politics of the Women's Center,'' The Princeton
        Tory, p. 6 (December 1987).

        ``Attention U-Store Shoppers,'' The Princeton Tory, p. 10
        (April 1988).

        ``Awaiting the Judgment of History: An Interview with Edwin
        Meese,'' The Princeton Tory, p. 33 (December 1988).

    16. Speeches: Provide the Committee with two copies of any formal
speeches you have delivered during the last 5 years which you have
copies of on topics relevant to the position for which you have been
nominated.
    I have delivered numerous formal speeches during the past two years
in my capacities as Deputy Under Secretary of Commerce for Industry and
Security and Chief Counsel for Export Administration. These speeches
all focused on issues relevant to my portfolio at the Department of
Commerce--in particular, controlling trade in sensitive goods and
technologies in support of U.S. national security and foreign policy. I
have not delivered any formal speeches on subjects that would be within
my jurisdiction if confirmed as Assistant Secretary of Transportation
for Aviation and International Affairs.
    17. Selection:

    (a) Do you know why you were chosen for this nomination by the
President?
    I believe that I was nominated by the President for this position
because of my professional qualifications, which include a strong
background in aviation law, public policy, international relations, and
experience managing a Federal Government agency.
    (b) What do you believe in your background or employment experience
affirmatively qualifies you for this particular appointment?
    I believe that a number of experiences in my background
affirmatively qualify me for this appointment. First, I have practiced
aviation law at a major Washington, D.C. law firm for approximately 7
years. In that practice, I became intimately familiar not only with
U.S. and foreign laws and regulations affecting aviation, but also with
aviation business and policy issues. Second, during the past two years,
I have helped to manage the Bureau of Industry and Security, a 350-
employee agency at the Department of Commerce charged with
administering U.S. dual-use export controls and handling other issues
that arise where international trade and national security intersect.
This experience has helped me to develop policymaking and management
skills. It has also afforded me a variety of opportunities--including
directing agency initiatives, leading international delegations in
conducting bilateral negotiations, working with and testifying before
Congress, participating in senior-level interagency discussions, and
working with constituencies affected by agency actions that I believe
will serve me well if confirmed as Assistant Secretary. Finally, I
believe that my academic experience--first studying, and then teaching,
international relations, public policy and law help qualify me for the
position.
                   b. future employment relationships
    1. Will you sever all connections with your present employers,
business firms, business associations or business organizations if you
are confirmed by the Senate?
    I will cease being an employee of, and will sever all connections
with, the U.S. Department of Commerce on September 7, 2003. On
September 8, 2003, I will become an employee of the U.S. Department of
Transportation, acting as a consultant.
    2. Do you have any plans, commitments or agreements to pursue
outside employment, with or without compensation, during your service
with the government? If so, explain.
    I have no such plans, commitments or agreements, with one
exception: Since 2000, I have served as an adjunct professor at
Georgetown University School of Law, co-teaching a course on
International Civil Litigation for which I have received de minimis
compensation. If confirmed, I would maintain inactive status as adjunct
professor.
    3. Do you have any plans, commitments or agreements after
completing government service to resume employment, affiliation or
practice with your previous employer, business firm, association or
organization? No.
    4. Has anybody made a commitment to employ your services in any
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation
agreements, and other continuing dealings with business associates,
clients or customers.
    I have no financial arrangements, deferred compensation agreements
or other business dealings with any business associates, clients or
customers.
    Pursuant to the Wilmer, Cutler & Pickering partnership agreement, I
am scheduled to continue to receive withdrawal payments from the law
firm through September 2004. I also have funds in a 401K account
managed for Wilmer, Cutler & Pickering by UMB Bank.
    2. Indicate any investments, obligations, liabilities, or other
relationships which could involve potential conflicts of interest in
the position to which you have been nominated.
    Please refer to the Assistant General Counsel's opinion letter.
    3. Describe any business relationship, dealing, or financial
transaction which you have had during the last 10 years, whether for
yourself, on behalf of a client, or acting as an agent, that could in
any way constitute or result in a possible conflict of interest in the
position to which you have been nominated?
    Please refer to the Assistant General Counsel's opinion letter.
    More generally, it is possible that administrative proceedings
remain ongoing in which I represented a client before the Department
when in private practice, although I have not practiced aviation law
for more than two years and I am not aware of any such proceedings.
Consistent with ethical obligations, I would seek to recuse myself from
decisionmaking in such proceedings (if any).
    4. Describe any activity during the past 10 years in which you have
engaged for the purpose of directly or indirectly influencing the
passage, defeat or modification of any legislation or affecting the
administration and execution of law or public policy.
    While an attorney practicing at Wilmer, Cutler & Pickering, I
represented clients on a variety of legal and policy matters in many
proceedings before U.S. and foreign Executive Branch agencies and U.S.
courts. Although on occasional matters I would interact with
congressional staff, my practice did not typically involve seeking to
influence legislation.
    While Deputy Under Secretary of Commerce for Industry and Security,
I met with Congressional staff and testified before Congressional
committees regarding public policy issues and pending legislation.
    5. Explain how you will resolve any potential conflict of interest,
including any that may be disclosed by your responses to the above
items. (Please provide a copy of any trust or other agreements.)
    Please refer to the Assistant General Counsel's opinion letter.
    6. Do you agree to have written opinions provided to the Committee
by the designated agency ethics officer of the agency to which you are
nominated and by the Office of Government Ethics concerning potential
conflicts of interest or any legal impediments to your serving in this
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics
for unprofessional conduct by, or been the subject of a compliant to
any court, administrative agency, professional association,
disciplinary committee, or other professional group? If so, provide
details. No.
    2. Have you ever been investigated, arrested, charged or held by
any Federal, State, or other law enforcement authority for violation of
any Federal, State, county, or municipal law, regulation or ordinance,
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer
ever been involved as a party in interest in an administrative agency
proceeding or civil litigation? If so, provide details?
    I was named as a defendant in a civil action (Kay L. Holzwordt v.
Karan K. Bhatia et al., No. CV 91-18313) brought in Arizona State
Superior Court for Maricopa County deriving from a traffic accident
that occurred in Phoenix, Arizona on June 12, 1991. The plaintiff
alleged injury to her car and person. I was represented in the case by
my insurance carrier, which settled the claim. The case was dismissed
with prejudice on June 29, 1993.
    4. Have you ever been convicted (including pleas of guilty or nolo
contendere) of any criminal violation other than a minor traffic
offense? No.
    5. Please advise the Committee of any additional information,
favorable or unfavorable, which you feel should be considered in
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with
deadlines set by congressional committees for information? Yes, to the
best of my ability.
    2. Will you ensure that your department/agency does whatever it can
to protect congressional witnesses and whistle blowers from reprisal
for their testimony and disclosures? Yes, to the best of my ability.
    3. Will you cooperate in providing the Committee with requested
witnesses, to include technical experts and career employees with
firsthand knowledge of matters of interest to the Committee? Yes, to
the best of my ability.
    4. Please explain how you will review regulations issued by your
department/agency, and work closely with Congress, to ensure that such
regulations comply with the spirit of the laws passed by Congress.
    As a former practicing attorney with a regulatory law practice and
a senior manager of a Commerce Department agency charged with
administering a complex regulatory regime, I am keenly sensitive to the
importance of ensuring that agency regulations are consistent with the
laws passed by Congress, as well as constitutional requirements. As
Assistant Secretary, I would seek to ensure that proposed regulations
were closely reviewed by the Department's professional staff (including
the Office of General Counsel) to ensure such consistency. I would also
personally review all regulations proposed by the Office under my
supervision.
    5. Describe your department/agency's current mission, major
programs, and major operational objectives.
    The Department of Transportation's mission is to serve the United
States by ensuring a fast, safe, efficient, accessible and convenient
transportation system that meets our vital national interests and
enhances the quality of life of the American people, today and into the
future. Under Secretary Mineta, the Department's principal priorities
are to keep the traveling public safe and secure, increase their
mobility, and have our transportation system contribute to the Nation's
economic growth.
    Within the Department, the Office of Aviation and International
Affairs handles a broad portfolio of responsibilities relating to
domestic aviation, international aviation, and international
transportation and trade. Its specific aviation-related
responsibilities include participation in international bilateral and
multilateral aviation services negotiations; licensing and awarding
economic authority to U.S. and foreign carriers seeking to operate to/
from the United States; limited entry; seeking to address unfair
foreign trade practices related to aviation; ensuring the continuing
fitness of U.S. air carriers; administration of the Essential Air
Services program and the Small Community Air Service Development Pilot
Program; undertaking economic analyses of, and other special projects
concerning, domestic and international aviation; and activities related
to access and competition at airports. In the area of international
transportation and trade, the Office's responsibilities include
participation in multilateral trade negotiations; administration of
technical assistance programs and other forms of cooperation with
foreign partners; advising on international transportation and trade
policy issues relating to maritime and surface transportation;
international standards development and harmonization; and trade
facilitation and promotion.
    6. Are you willing to appear and testify before any duly
constituted committee of the Congress on such occasions as you may be
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education
qualifies you for the position for which you have been nominated?
    From 1994-2001, I had a legal practice focused principally on
transportation. A core component of my practice was counseling clients
on a wide range of U.S. and foreign regulatory issues affecting the
aviation industry. I also advised a number of aviation-related
businesses on corporate and transactional matters. As a result of this
experience, I am closely familiar with laws and regulations affecting
aviation, aviation-related business matters, and key aviation policy
issues.
    This substantive expertise in aviation has been complemented, over
the past two years, by my experience in government, first as Chief
Counsel for Export Administration and then as Deputy Under Secretary of
Commerce for Industry and Security, with responsibilities for day-to-
day administration of a 350-person bureau. In these positions, I have
developed and implemented policy on complex issues that require
reconciling competing interests, supervised various departmental and
bureau initiatives, and worked closely with multiple stakeholders. This
experience has helped me develop policy-making and management skills
that will serve me well if confirmed as Assistant Secretary for
Aviation and International Affairs.
    I believe that my educational experiences also qualify me for the
position. In my undergraduate, (Princeton), graduate (London School of
Economics), and law school (Columbia) studies, I focused on public
policymaking, with a particular interest in international law and
international relations--subjects relevant to the Assistant Secretary's
portfolio.
    2. Why do you wish to serve in the position for which you have been
nominated?
    I have had a lifelong interest in both aviation and public policy,
and am deeply committed to helping improve our Nation's transportation
system.
    3. What goals have you established for your first two years in this
position, if confirmed?
    My goals include the following:

  <bullet> To strengthen the Office of Aviation and International
        Affairs institutionally and to improve, where possible, the
        services it renders.

  <bullet> To improve inter-agency communication and cooperation on
        issues relevant to aviation.

  <bullet> Actively to pursue the further liberalization of
        international markets and seek further opportunities for U.S.
        transportation-related industries to compete abroad.

  <bullet> To preserve and expand the benefits to the traveling public
        that derive from an aviation system based principally on market
        competition and regulated by the government only as necessary
        to protect the public interest.

  <bullet> To strengthen the country's transportation infrastructure,
        both domestically and globally.

    4. What skills do you believe you may be lacking which may be
necessary to successfully carry out this position? What steps can be
taken to obtain those skills?
    As noted above, I believe that my background and experience make me
well suited for this position. Nonetheless, there are areas relevant to
the Assistant Secretary's diverse portfolio to which I have had
relatively little exposure (including, for example, the Essential Air
Service program and labor relations issues). If confirmed, I would look
forward to developing substantially greater knowledge about these
areas.
    5. Who are the stakeholders in the work of this agency?
    The principal stakeholders in the work of this agency are, first
and foremost, the American people, who depend upon a safe, secure,
efficient and accessible aviation system. Other stakeholders include
Congress, aviation-and transportation-related businesses and their
employees, airports and the communities in which they are based, state
and local governments and transportation-related governmental entities,
and other Executive Branch agencies.
    6. What is the proper relationship between your position, if
confirmed, and the stakeholders identified in question number five.
    Consistent with Secretary Mineta's policy, I would strive to listen
to and work with all concerned stakeholders.
    7. The Chief Financial Officers Act requires all government
departments and agencies to develop sound financial management
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to
ensure that your agency has proper management and accounting controls?
    I believe that it is the responsibility of all government managers
to ensure that their organizations are adhering to proper financial
management practices. If confirmed, I would work with the Assistant
Secretary for Budget and Programs/Chief Financial Officer and the
Inspector General to ensure that my office adheres to such practices,
promotes efficiency, and minimizes waste.
    (b) What experience do you have in managing a large organization?
    As Deputy Under Secretary of Commerce for Industry and Security, I
have been responsible for day-to-day management of a 350-person bureau
at the Department of Commerce. My responsibilities have included
overseeing the bureau's finances, administrative functions, personnel,
legal functions, congressional affairs, and public relations functions.
    8. The Government Performance and Results Act requires all
government departments and agencies to identify measurable performance
goals and to report to Congress on their success in achieving these
goals.
    (a) Please discuss what you believe to be the benefits of
identifying performance goals and reporting on your progress in
achieving those goals.
    From my experience helping to manage the Bureau of Industry and
Security, I have come to believe deeply in the importance of carefully
designed performance goals--both for agencies and for employees to
ensure effective agency management and performance. Clear, written
performance goals help ensure that the agency and its personnel are
focused on, and held accountable for, the performance of key functions
and achievement of key goals.
    (b) What steps should Congress consider taking when an agency fails
to achieve its performance goals? Should these steps include the
elimination, privatization, downsizing or consolidation of departments
and/or programs?
    I believe that Congress and the Executive Branch should work
closely together in ensuring that agency objectives are achieved and,
when not achieved, determining what action is most appropriate.
Accordingly, I believe that the steps taken should be based on
consultation and a complete understanding of relevant facts and
circumstances.
    (c) What performance goals do you believe should be applicable to
your personal performance, if confirmed?
    If confirmed, I would hold mysel--and would expect to be held by
others--to the performance goals established for the Department and the
Office.
    9. Please describe your philosophy of supervisor/employee
relationships. Generally, what supervisory model do you follow? Have
any employee complaints been brought against you?
    I have supervised employees in various environments as a partner at
a law firm, as chief counsel of a government agency legal office, and
as deputy under secretary charged with helping to manage a bureau of
approximately 350 people. In all of these environments, my approach has
been to work collegially, courteously, and professionally with my
employees, and to expect that approach to be reciprocated. I have
sought to create supportive and interesting work environments, where my
expectations of employees are made clear. I believe that work
(especially when one is working for the American public) demands
substantial effort, creativity, diligence, and dedication. I demand
these commitments from myself and from my employees. No employee
complaints have ever been brought against me.
    10. Describe your working relationship, if any, with the Congress.
Does your professional experience include working with committees of
Congress? If yes, please describe.
    While at the Commerce Department, I worked very well with a number
of Congressional committees. In particular, I worked closely with my
bureau's authorizing committees (House International Relations
Committee and Senate Banking Committee), both informally (working with
staff) and more formally (testifying). I responded promptly to any
request for information from these (and other committees) and would,
when I thought it appropriate, proactively go up to the Hill to discuss
issues and initiatives with relevant staff.
    11. Please explain what you believe to be the proper relationship
between yourself, if confirmed, and the Inspector General of your
department/agency.
    I have worked very well with the Inspector General at the
Department of Commerce and would seek to replicate this relationship
with the Inspector General at the Department of Transportation. I
believe that the Inspector General has an essential role to play in
ensuring that the Department is operating consistent with applicable
laws, and would seek ensure that my staff and I cooperated fully with
the Inspector General in fulfilling his responsibilities.
    12. Please explain how you will work with this Committee and other
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    As noted in response to Question E(4) above, as a former practicing
attorney with a regulatory law practice and a senior manager of a
Commerce Department agency charged with administering a complex
regulatory regime, I am keenly sensitive to the importance of ensuring
that agency regulations are consistent with the laws passed by
Congress, as well as constitutional requirements. As also noted above,
I believe deeply in the importance of a collaborative relationship
between Executive Branch agencies, Congress and other stakeholders. To
that end, if confirmed, I would look forward to a regular dialogue with
this Committee on issues that fall within the jurisdiction of the
position to which I have been nominated.
    13. In the areas under the department/agency's jurisdiction, what
legislative action(s) should Congress consider as priorities? Please
state your personal views.
    First, I believe that speedy reauthorization of Federal aviation
programs is of critical importance and must be a priority. Second, I
believe that it is important that Congress timely enact transportation
appropriations legislation for Fiscal Year 2004 to ensure that those
programs are maintained without disruption. Finally, I would urge
Congress to consider passing legislation to increase the statutorily
permissible level of foreign investment in U.S. air carriers from 25
percent to 49 percent. Such a change would strengthen U.S. air carriers
by increasing their access to global capital markets, while not
altering the requirement that U.S. carriers be under the control of
U.S. citizens.
    14. Within your area of control, will you pledge to develop and
implement a system that allocates discretionary spending based on
national priorities determined in an open fashion on a set of
established criteria? If not, please state why. If yes, please state
what steps you intend to take and a time frame for their
implementation.
    There is not a large amount of discretionary spending in Aviation
and International Affairs. For the spending that exists, I pledge to
pursue a system that allocates spending based on national priorities
determined in an open fashion on a set of established criteria. If
confirmed, I intend to work closely with the Secretary, Deputy
Secretary, and colleagues in the implementation of such a system and
the development and clarification of such priorities.

    The Chairman. Thank you very much.
    Mr. Snelling, welcome.

             STATEMENT OF CHARLES DARWIN SNELLING,

NOMINEE TO BE A MEMBER OF THE METROPOLITAN WASHINGTON AIRPORTS
                           AUTHORITY

    Mr. Snelling. Mr. Chairman, thank you for your courtesies
to me.
    You have my written remarks. And if it would be your
pleasure, I'd be glad to waive reading, in the interest of your
time pressures.
    The Chairman. I'd be glad to, Mr. Snelling, unless you--
would you like to make some brief----
    Mr. Snelling. Well, I'm delighted to be here. I think it's
a very important position, and I will discharge it to the very
best of my abilities, should I be confirmed.
    [The prepared statement and biographical information of Mr.
Snelling follow:]

 Prepared Statement of Charles Darwin Snelling, Nominee to be a Member
           of the Metropolitan Washington Airports Authority
    Mr. Chairman, Members of the Committee:

    I am Charles Snelling, the President's nominee to the Metropolitan
Washington Airports Authority Board of Directors. I would succeed the
Honorable Norman Y. Mineta, who resigned from the Board in 2000 when he
was appointed Secretary of Commerce.
    As the documents submitted to the Committee indicate, I have long
been involved in aviation. At present, I have been serving as Chairman
of the Pennsylvania Aviation Advisory Commission and I am a licensed
pilot. For five years, I served on the Board of Governors of the Lehigh
Valley International Airport.
    As to my own career, after having held a salaried job for about a
year in 1954-1955, I founded a high-tech business. In the seventies
that business was sold. Since then I have been an inventor,
entrepreneur, real estate developer and venture capitalist. I have
always lived in the Allentown, Pennsylvania area, and my business
activities have been based there. I also own some island properties in
the St. Lawrence near Alexandria Bay, New York, and have some business
interests in that area as well. I have been a cofounder of a family of
venture capital partnerships, which have invested in start-up and
early-stage ventures, many of which have been high-tech.
    Over the years I have served on the boards of a number of
educational and other public interest institutions, including the
Lehigh Valley Hospital, the Allentown Art Museum, Cedar Crest College,
the YMCA, the Lehigh County United Way and the Pennsylvania Society, to
mention a few.
    As my papers attest, I have long been involved in politics and
public policy as well. I have held elected office as President of the
Allentown City Council. I have been quite active politically as a
volunteer on behalf of various candidates, political organizations and
committees. I have served as Chairman of the Republican Finance
Committee of Pennsylvania and the Lehigh County Republican Finance
Committee. I am an elected member of the Republican State Committee of
Pennsylvania.
    As you know, the Metropolitan Washington Airports Authority has a
Board of Directors consisting of 13 Members. The Governor of Virginia
appoints five, the Mayor of the District of Columbia appoints three,
and the Governor of Maryland appoints two. The President also appoints
three, to represent the national interest. I consider myself well
qualified to provide that perspective.
    In accordance with long-standing practice, I have attended several
meetings of the Board of Directors since the President announced my
nomination. I am thus reasonably familiar with the issues facing the
Airports Authority today, and am willing to discuss them with you; to
the extent I am able.
    Ronald Reagan Washington National and Washington Dulles
International Airports, of course, serve the Nation's Capital, and as
such are very high profile. Most Senators are regular users of these
Airports, and most are aware that they have been very well managed. It
will require care and attention to assure that this record is
maintained. The Board is a very able and distinguished one, and, with
your consent, I look forward to serving on it.
    These are difficult times for our Nation's air transportation
system, including our airports. It is a time of rapid change. There are
many challenges to be met and successfully overcome. I would be very
pleased to be able to make a contribution to the solution of these
challenges.
    Mr. Chairman, thank you for considering my nomination to the Board
of the Metropolitan Washington Airports Authority. I will be happy to
answer any questions.
                                 ______

                      a. biographical information
    1. Name: (Include any former names or nicknames used) Charles
Darwin Snelling.
    2. Position to which nominated: Member [``Director''], Metropolitan
Washington Airports Authority, an agency created by interstate compact
between the Commonwealth of Virginia and the District of Columbia.
    3. Date of nomination: April 28, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: 1280 Church Street, Fogelsville, Pennsylvania 18051-
        1710.

    5. Date and place of birth: January 26, 1931; Allentown,
Pennsylvania.
    6. Marital status: (Include maiden name of wife or husband's name)

        Married March 21, 1951 to Adrienne Celeste Angeletti

    7. Names and ages of children: (Include stepchildren and children
from previous marriages.)

        Adrienne Celeste Snelling II Sullivan--51; Jonathan Commonfort
        Snelling--49; Marjorie Preston Snelling More--47; Elizabeth
        Hornor Snelling Meeker--45; Lesley Coates Snelling Bober--42.

    8. Education: (List secondary and higher education institutions,
dates attended, degree received.)

        Allentown High School, Allentown, Pennsylvania, September 1945-
        June 1948.

        Phillips Academy, Andover, Massachusetts, September 1948-August
        1949.

        Muhlenberg College, Allentown, Pennsylvania, September 1949-
        June 1951.

        Lehigh University, Bethlehem, Pennsylvania, September 1951-June
        1954, B.S. in E.M.

    9. Employment record: (List all jobs held since college, including
the title or description of job, name of employer, location of work,
and dates of employment.)
    1954-1955: Assistant to the President, New York Transformer
Company, Alpha, New Jersey. This staff position involved new product
development and survey, and general technical and administrative
management decisions.
    Since that time, I have been effectively self-employed.
    10. Government experience: (List any advisory, consultative,
honorary or other part-time service or positions with Federal, State,
or local governments, other than those listed above.)

        Chairman, Pennsylvania Aviation Advisory Commission, 2000-

        Member, Keystone Committee, 1995

        Governor, Lehigh-Northampton Airport Authority, 1989-1994

        Member, National Advisory Council, U.S. Small Business
        Administration, 1990-1991

        Member, President's Commission on Personnel Interchange, 1976-
        1978

        Member, Commerce Technical Advisory Board, U.S. Department of
        Commerce, 1976-1977

        Pennsylvania League of Cities--Director, 1973; Chairman,
        Finance Committee, 1972; Member, Resolutions Committee, 1970-
        71; Member, Legislative Committee, 1972; Chairman, Energy
        Policy Committee
    11. Business relationships: (List all positions held as an officer,
director, trustee, partner, proprietor, agent, representative, or
consultant of any corporation, company, firm, partnership, or other
business enterprise, educational, or other institution.)
        Current

        Director, Bliley Technologies

        President and Director, The Snelling Company

        Director, NEPA Management Business Trust

        President and Director, Western Lehigh Valley Corporation

        Director, Axicom Technologies, Inc.

        Chairman, 1000 Islands Marine and Island Service

        Prior

        Trustee, Lehigh Valley Hospita1/Lehigh Valley Health Network,
        Inc., Allentown, Pennsylvania--1982-2002; Treasurer--1986-1991

        Director, Metech, Inc., 1985-1995

        Director, International Canine Genetics, 1988-1993

        Director, American Dredging Company, 1978-1992

        Director, TB Holding Co./Boyertown Casket Company, 1975-1990

        Director, Applewood Construction, Inc., 1980-1987

        Chairman, Director, App1ewood, Inc., 1971-1984

        Chairman, Director, Mohr Orchards, Inc., 1975-1983

        President, Director, Trexler Orchards, Inc., 1965-1974

        Director, AgMet, Inc., 1968-1969

        Director, Merchants National Bank of Allentown, Pennsylvania,
        1961-1969

        Founder, President, Director, Cryo-Therm, Inc., (predecessor
        corporations) 1955-1972

    12. Members/tips: (List all memberships and offices held in
professional, fraternal, scholarly, civic, business, charitable, and
other organizations.)
        Current

        Council of The Pennsylvania Society, Sellersville,
        Pennsylvania--Secretary, 1993-1995; First Vice President, 1995-
        1997; President, 1997-2000

        The Franklin Institute, Philadelphia, Pennsylvania

        American Association for the Advancement of Science,
        Washington, D.C.

        Merion Cricket Club, Haverford, Pennsylvania

        Grenadier Island Country Club, Ltd., Ontario, Canada--Past
        President

        Lehigh Country Club, Allentown, Pennsylvania

        The Princeton Club, New York, New York

        The Athenaeum of Philadelphia, Philadelphia, Pennsylvania--
        Director

        Foundation for the Advancement of Monetary Education, New York,
        New York--Trustee

        Cedar Crest College, Allentown, Pennsylvania--Trustee, 1974-
        1997; Treasurer, 1985-1997; Life Trustee, 1997-

        The Antique Boat Museum, Clayton, New York--Trustee, 1978-;
        Chairman, 1998-2000

        Prior

        Educational Ventures, Inc., Allentown, Pennsylvania, 1982-2002;
        Treasurer, 1986-1991

        Allentown Art Museum, Allentown, Pennsylvania--Trustee

        Allentown Economic Development Corporation, Allentown,
        Pennsylvania--Director

        Allentown-Lehigh County Chamber of Commerce, Allentown,
        Pennsylvania--Director

        Allentown--Lehigh County Chamber of Commerce Issues Committee--
        Member

        Muhlenberg College, Allentown, Pennsylvania--Member, Board of
        Associates

        Allentown Area Foundation--Member, Board of Governors, 1973-
        1983

        Pennsylvania State University--Member, Advisory Board for
        Allentown Campus

        YMCA, Allentown, Pennsylvania--Trustee, 1974-1979; Director,
        1960-1966; President, 1962

        Lehigh County United Way, Allentown, Pennsylvania--Director,
        1965-1967, 1976-1979

        Lehigh County Crippled Children's Society--Director, 1961-1964;
        Chairman, 1962

        Lehigh County United Way, Public Service Division--Chairman,
        1972; Metropolitan County Division--Chairman, 1976

        Hospital and Health Council, Inc., Citizens' Advisory
        Committee--Chairman

        Alumni Council, Phillips Academy, Andover, Massachusetts--
        Member, 1964-1967

        AHEAD Hospital Drive, Medium Business and Industry Grouping--
        Chairman, 1967-1968

        Lehigh Valley Energy Task Force, Allentown-Bethlehem-Easton--
        Chairman, 1974-1976

        Allentown Public Library Building Fund--Chairman, Coordinator,
        1976-1978

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or
any public office for which you have been a candidate.

        Councilman, City of Allentown, Pennsylvania--elected 1969 (4-
        year term)

        President, Allentown City Council--elected annually, 1970-1973

        Member, 1972 Pennsylvania Electoral College

        Candidate for the Pennsylvania Senate, 1974

    (b) List all memberships and offices held in and services rendered
to all political parties or election committees during the last 10
years.

        Republican State Committee of Pennsylvania--elected 1998, re-
        elected 2000 and 2002

    (c) Itemize all political contributions to any individual, campaign
organization, political party, political action committee, or similar
entity of $500 or more for the past 10 years.




2003:                   $4,000   Bush-Cheney '04, Inc.
                        $1,000   Brian Johnson for Judge
                         1,000   Charlie Dent for Congress
                           500   Lehigh County Republican Committee
                           500   Northampton County Republican Committee
                           500   Committee to Elect Jim Martin

2002:                   $2,424   Citizens for Arlen Specter
                         1,000   Friends of Brian O'Neill
                         1,000   Pat Toomey for Congress
                         1,000   Committee to Elect Doug Reichley
                         1,000   Committee to Elect Charlie Dent
                         1,000   Lehigh Valley Republican Development
                                  Group
                         1,000   Pennsylvania Republican State Committee
                           500   Pennsylvania Senate Republican Campaign
                                  Committee

2001:                   $2,500   Committee to Elect Judge R. Simpson
                         2,000   Committee to Elect Jane Ervin
                         2,000   Pam Varkony for Mayor
                         1,000   Pat Toomey for Congress
                         1,000   Citizens for Arlen Specter
                         1,000   Pennsylvania Senate Republican Campaign
                                  Committee
                         1,000   Bob Lovett for Mayor
                         1,000   Committee to Elect Charlie Dent
                         1,000   Fisher for Governor
                         1,000   Pennsylvania Republican State Committee
                           500   Republican Pro-Choice Coalition
                           500   Friends of Renee Cohn
                           500   Friends of Judge Eakin

2000:                   $5,000   RNC Presidential Trust
                         2,000   Gruppo for State Representative
                         1,500   Citizens for Browne
                         1,500   Citizens for Mark Mitman
                         1,500   Pennsylvania Senate Republican Campaign
                                  Committee
                         1,000   Governor Ridge Leadership Circle
                         1,000   Friends of Mike Fisher
                         1,000   WISH (Women in Senate and House)
                         1,000   Committee to Elect Robert Saurman
                         1,000   Friends of Barbara Hafer
                         1,000   Pennsylvania Republican State Committee
                         1,000   Voices for Varkony
                           500   Committee to Elect Julie Harhart

1999:                   $2,000   Governor George W. Bush Presidential
                                  Exploration Committee
                         2,000   Jim Martin for District Attorney
                         2,000   Pat Toomey for Congress
                         1,000   Pennsylvania Republican State Committee
                         1,000   Friends of Giuliani
                         1,000   Pam Varkony for City Council
                           500   Sam Katz for Mayor
                           500   Blaschak for City Council
                           500   Pennsylvania House Republican Campaign
                                  Committee
                           500   Nick Sabatine for County Council

1998:                   $2,050   Pat Toomey for Congress
                         2,000   Friends of Governor Ridge
                         1,000   Citizens for Joe Uliana
                         1,000   Pennsylvania House Republican Campaign
                                  Committee Citizens for Arlen Specter
                         1,000   Pennsylvania Republican State Committee
                         1,000   Friends of Rima Fahl
                           650   Committee to Elect Charlie Dent
                           500   Friends of Senator Jubelirer
                           500   Committee to Elect Bonnie DiCarlo

1997:                   $1,000   Wallitsch for Superior Court
                         1,000   Jim Martin for Judge
                         1,000   Friends of Governor Ridge
                         1,000   Rick Santorum 2000
                         1,000   Pennsylvania House Republican Campaign
                                  Committee
                         1,000   Pennsylvania Republican State Committee
                           600   Bill Heydt for Mayor
                           600   Friends of Bill Brackbill

1996:                   $1,125   Lehigh County Republican Committee
                         1,000   Pennsylvania Republican State Committee
                         1,000   Dole/Kemp '96
                         1,000   Pennsylvania House Republican Campaign
                                  Committee
                         1,000   Friends of Bob Kilbanks
                           500   Friends of Governor Ridge
                           500   Committee to Elect Bob Nyce

1995:                   $1,250   Dole for President
                         1,000   Pennsylvania Republican State Committee
                         1,000   Arlen Specter '96
                         1,000   Rick Santorum 2000
                         1,000   Friends of Ken Smith
                         1,000   Friends of Governor Ridge
                         1,000   Barbara Snelling for Lieutenant
                                  Governor
                           500   Lehigh County Republican Committee

1994:                   $2,000   Tom Ridge for Governor
                         2,000   Santorum '94
                         1,350   Yeager for Congress
                         1,000   Barbara Snelling for Lieutenant
                                  Governor
                         1,000   Pennsylvania Republican State Committee
                         1,000   Pennsylvania Republican Senate Campaign
                                  Committee
                           675   Lehigh County Republican Committee
                           500   Friends of Ken Smith
                           500   Citizens for Joe Uliana
                           500   McCarty for Congress


    14. Honors and awards: (List all scholarships, fellowships,
honorary degrees, honorary society memberships, military medals, and
any other special recognitions for outstanding service or
achievements.)

        1958--Chosen one of America's Outstanding Young Men in Business
        in a national magazine survey.

        1962--Chosen Distinguished Young Man of the Year, Allentown
        Junior Chamber of Commerce

        1999--Honorary Doctor of Public Service Degree, Cedar Crest
        College, Allentown

    15. Published writings: (List the titles, publishers, and dates of
books, articles, reports, or other published materials which you have
written.)
    I have written regular columns commenting on economic, political
and social issues, published in the Allentown Morning Call since 1979.
From 1983 to 1986, I also wrote a weekly column for the Bethlehem
Globe-Times. A list of all such columns is enclosed.
    16. Speeches: (Provide the Committee with two copies of any formal
speeches you have delivered during the last 5 years which you have
copies of on topics relevant to the position for which you have been
nominated.) None.
    17. Selection:

    (a) Do you know why you were selected for the position to which you
have been nominated by the President? No.
    (b) What in your background or employment experience do you believe
affirmatively qualifies you for this particular appointment?
    Extensive experience with aviation. I am a licensed pilot and hold
land, single- and multi-engine, and instrument ratings, as well as a
glider's license. I have 5,740 hours total time, and have owned and
operated my own aircraft for more than 40 years. I was appointed by
Governor Tom Ridge as Chairman of the Pennsylvania Aviation Advisory
Committee, and I previously served as a Governor of the Lehigh-
Northampton Airport Authority, which operates the Lehigh Valley
International Airport.
                   b. future employment relationships
    1. Will you sever all connections with your present employers,
business firms, business associations, or business organizations if you
are confirmed by the Senate?
    Given the nature of the appointment, and the nature of my business
relationships, there is no reason to do so.
    2. Do you have any plans, commitments, or agreements to pursue
outside employment, with or without compensation, during your service
with the government? If so, explain.
    I do not intend to alter my current business activities, as they do
not present any conflicts. The position is part-time, and the
Metropolitan Washington Airports Authority, which is not a Federal
agency, will not be compensating me for more than routine expenses.
    3. Do you have any plans, commitments, or agreements after
completing government service to resume employment, affiliation, or
practice with your previous employers, business firms, associations, or
organizations? Not applicable.
    4. Has anybody made a commitment to employ your services in any
capacity after you leave government service? Not applicable.
    5. If confirmed, do you expect to serve out your full term or until
the next Presidential election, whichever is applicable?
    I intend to serve out my full term, which would expire May 30,
2006, and will be eligible at that time to be reappointed.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation
agreements, and other continuing dealings with business associates,
clients, or customers. Not applicable.
    2. Indicate any investments, obligations, liabilities, or other
relationships which could involve potential conflicts of interest in
the position to which you have been nominated.
    All my investments, obligations, liabilities and other
relationships have been reviewed at the Office of Government Ethics and
at the Airports Authority. We all agree that none presents a risk of
conflict of interest. A copy of my OGE Form 450 has been provided to
the Committee.
    3. Describe any business relationship, dealing, or financial
transaction which you have had during the last 10 years, whether for
yourself, on behalf of a client, or acting as an agent, that could in
any way constitute or result in a possible conflict of interest in the
position to which you have been nominated.
    I cannot identify any.
    4. Describe any activity during the past 10 years in which you have
engaged for the purpose of directly or indirectly influencing the
passage, defeat, or modification of any legislation or affecting the
administration and execution of law or public policy.
    I have never been paid as an advocate of public policy or
legislation, nor have I ever been a lobbyist. However, I have in my
regular newspaper column on politics and economics made public
pronouncements on all manner of policy issues.
    5. Explain how you will resolve any potential conflict of interest,
including any that may be disclosed by your responses to the above
items. (Please provide a copy of any trust or other agreements.)
    I would address any potential conflict of interest in accordance
with the Airports Authority ``Code of Ethical Responsibilities for
Members of the Board of Directors'', which generally provides for full
disclosure and recusal for apparent conflicts.
    6. Do you agree to have written opinions provided to the Committee
by the designated agency ethics officer of the agency to which you are
nominated and by the Office of Government Ethics concerning potential
conflicts of interest or any legal impediments to your serving in this
position? Certainly.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics
by, or been the subject of a complaint to any court, administrative
agency, professional association, disciplinary committee, or other
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by
any federal, state, or other law enforcement authority for violation of
any federal, state, county, or municipal law, regulation, or ordinance,
other than for a minor traffic offense?
    If so, please explain.
    I have never been arrested, charged or held by any federal, state
or other law enforcement agency for violation of any federal, state,
county or municipal law, regulation or ordinance other than for minor
traffic offenses. I have no knowledge that I have ever been
investigated.
    3. Have you or any business of which you are or were an officer
ever been involved as a party in an administrative agency proceeding or
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo
contendere) of any criminal violation other than a minor traffic
offense? No.
    5. Please advise the Committee of any additional information,
favorable or unfavorable, which you feel should be disclosed in
connection with your nomination.
    If confirmed, I believe I would bring to the Metropolitan
Washington Airports Authority a considerable experience and
understanding of public policy matters and of business management.
                     e. relationship with committee
    1. Will you ensure that your board/commission complies with
deadlines for information set by congressional committees?
    To the extent it is within my power as one of thirteen Directors.
    2. Will you ensure that your board/commission does whatever it can
to protect congressional witnesses and whistleblowers from reprisal for
their testimony and disclosures?
    I understand this has not been an issue at the Airports Authority,
but I would want to make sure that such witnesses and whistleblowers
did not suffer reprisals.
    3. Will you cooperate in providing the Committee with requested
witnesses, including technical experts and career employees, with
firsthand knowledge of matters of interest to the Committee? Certainly.
    4. Are you willing to appear and testify before any duly
constituted committee of the Congress on such occasions as you may be
reasonably requested to do so?
    I have always been willing to appear and testify on such occasions,
and will remain so.
                  f. general qualifications and views
    1. How does your previous professional experiences and education
qualify you for the position for which you have been nominated?
    I have been an entrepreneur much of my life, founding and operating
businesses and creating good jobs and desirable products. I have been
the presiding officer of the city council of a fair-sized city and have
substantial experience in government and public policy matters. I have
served as a trustee of a hospital, a college, museums and the like,
some of which have been substantial organizations, equivalent in their
annual operations to the Airports Authority.
    2. Why do you wish to serve in the position for which you have been
nominated?
    Ronald Reagan Washington National and Washington Dulles
International Airports are facilities of the greatest importance to our
Capital and our Nation. I believe I can make a contribution to these
Airports' well-being.
    3. What goals have you established for your first two years in this
position, if confirmed?
    Air travel and all of its components, including the airlines and
airports, are under substantial stress at the present time. The goal of
this industry must be to provide safe, secure and convenient service to
the traveling public. Reagan National and Dulles International Airports
are very important organizations in the totality of air travel. My goal
would be to help the Airports Authority prudently meet the challenges
with which it is faced.
    4. What skills do you believe you may be lacking which may be
necessary to successfully carry out this position? What steps can be
taken to obtain those skills?
    It will be necessary for me to gain much specific knowledge about
the affairs of the Authority. I am not aware of any particular skills
that I am lacking to successfully carry out the position of a Member of
the Authority. I have been a vigorous activist in my life, perhaps more
so than a great diplomat. That situation seems to be improving with
age.
    5. Please discuss your philosophical views on the role of
government. Include a discussion of when you believe the government
should involve itself in the private sector, when society's problems
should be left to the private sector, and what standards should be used
to determine when a government program is no longer necessary.
    I view government as the servant of the people. In the broadest
sense, governments must accept responsibilities for such necessary
functions as the citizens could not individually discharge; for
example, defense. Another important function of government is to
provide a level playing field, ensuring that the marketplace is fair
and honest. Governments must ensure a safe and secure environment. I
believe that governments should minimize to the extent possible,
consistent with the above-enumerated principles, its involvement in the
private sector. Determination of when a government program is no longer
necessary is actually quite similar to the determination of whether a
new program is necessary; i.e., does it perform a useful service for
the citizenry which the citizenry could not perform individually? Does
the government program promote a level playing field? Does it ensure
``law and order'' and promote fairness?
    6. Describe the current mission, major programs, and major
operational objectives of the board/commission to which you have been
nominated.
    The Board of Directors of the Airports Authority is responsible for
the operation and management of the Nation's Capital's principal
airports. The Directors are responsible to see that those airports have
adequate facilities to conveniently, safely and securely provide for
air transportation to the Nation's Capital and to ensure that these
objectives are met at a price which air travelers can afford.
    7. What do you believe to be the top three challenges facing the
board/com-mission and why?
    (1) Security from terror threats, (2) financial management that
ensures the Authority's ability to provide facilities needed by air
travelers at a price which air travelers can afford, (3) protecting
Washington's airports from adverse affects of the financial turmoil in
the airline industry.
    8. In reference to question number six, what factors in your
opinion have kept the board/commission from achieving its missions over
the past several years?
    I believe the Airports Authority has achieved its mission over the
past several years.
    9. Who are the stakeholders in the work of this board/commission?
    The Airports Authority has many stakeholders the traveling public,
its own employees, the airlines and others that do business on the
airports, the Congress and the Administration all come to mind.
    10. What is the proper relationship between the position to which
you have been nominated, and the stakeholders identified in question
number nine?
    A board member of the Authority is a fiduciary and a steward on
behalf of the above-enumerated stakeholders.
    11. Please describe your philosophy of supervisor/employee
relationships. Generally, what supervisory model do you follow? Have
any employee complaints been brought against you?
    To my knowledge, no employee complaints have been brought against
me. My management philosophy has been heavily influenced by Peter
Drucker, by the modem concepts of fairly flat management, and by the
concept of customer and stakeholder orientation. I see boards of
directors as policy making and oversight organizations. A director's
job is to ensure that the organization's managers are competent and of
high integrity. Their duty is to resolve policy issues related to the
operation and future of the organization. Their oversight role involves
assuring that the policies set by the board are faithfully discharged
by management. It is the duty of the board to monitor that the
financial and employment affairs of the organization are executed and
monitored with integrity, and full disclosure. I am wary of board
members who choose to micro-manage.
    12. Describe your working relationship, if any, with the Congress.
Does your professional experience include working with committees of
Congress? If yes, please explain.
    I have worked closely for more than 40 years with Senators and
Congressmen. I worked very closely with Senators Hugh Scott, John Heinz
and Arlen Specter. When I was a governor of the Lehigh-Northampton
Airport Authority, I played a small role in advocating on behalf of
airports. I have served for a number of years on the Federal Judicial
Nominating Commission, appointed by Pennsylvania's two Senators, which
screens applicants for Federal district judgeships in the Eastern
District of Pennsylvania.
    13. In the areas under the board/commission jurisdiction to which
you have been nominated, what legislative action(s) should Congress
consider as priorities? Please state your personal views.
    I am not at this moment sufficiently experienced in the Authority's
needs to have come to any conclusions as to congressional priorities as
they might concern the Authority.
    14. Please discuss your views on the appropriate relationship
between a voting member of an independent board or commission and the
wishes of a particular president.
    As a voting member of any independent board or commission, I will
always try to understand the issues as well as I can and to come to a
conclusion as to the appropriate course of action, considering all the
circumstances. I will advocate and vote for that course of action, as I
truly believe to be appropriate and consistent with my fiduciary and
stewardship responsibilities.
                               Attachment
             Charles D. Snelling--A.15. Published Writings

                    Allentown Morning Call Editorials
                            By C. D. Snelling



4/8/79                Nuclear power: Two points of view_It's lesser of
                       risks
5/6/79                Foes grossly exaggerating dangers of radiation
4/25/89               Better evaluation of risks could cool future
                       'scares'
11/20/89              Cheer, don't boo, I-78 opening
6/14/90               Unfair public financing system bloats state
                       universities
11/19/90              U.S. political system is broken and term
                       limitations would fix it
9/26/91               Bill that would protect strikers threatens
                       workers' free choice
5/7/92                Nation reaps a bitter harvest as people blame
                       troubles on others
10/14/92              Citizens of Lehigh Valley are stakeholders in A-B-
                       E's future
1/12/93               `Best and brightest' are sought to provide new
                       vision for City
2/23/94               A-B-E must listen to minority but be sure to serve
                       majority
11/30/94              Subsidies are way to provide air fare breaks for
                       Valley
8/22/95               PECO's proposed takeover of PP&L would hurt area
11/1/95               Community response, good will helped overcome
                       threat to PP&L
1/23/96               Give taxpayers an incentive to invest in job
                       creation
2/24/96               A public philosophy will be column's business
3/30/96               Responsible parkers can make snow plowing easier
4/27/96               Suburbs must see self-interest in healthy cities
5/25/96               English is foundation of American success story
6/22/96               Children are in trouble, but don't blame the
                       system
7/27/96               Government-mandated recycling is wasteful policy
8/17/96               GOP gets unfiltered chance to sell itself to
                       nation
9/21/96               Welfare outcomes depend on laws of economics
10/5/96               A prediction: White House indictments by 1998
11/2/96               Legislature's political profiteering feeds
                       cynicism
11/30/96              Save our Springs does right thing in U. Macungie
12/28/96              Fuss over Parkway lights was nasty, unseemly
1/18/97               Clumsy cookie test impeaches teacher honesty
2/15/97               A command of English puts blacks in mainstream
3/15/97               Industrial museum can be commitment to future
4/26/97               Treating staff fairly is key to selling liquor
                       stores
5/24/97               Of Catholics, schools, Kennedys and annulments
6/7/97                Despite pundits and parties, voters have last word
7/5/97                Change values to alter abhorrent behavior
8/16/97               Science should guide action on global warming
9/13/97               Diana's death shows we need limits on press
10/11/97              White House misdeeds are drawing new scrutiny
11/8/97               To win next year, GOP had better choose wisely
12/13/97              New Medicare rule intrudes into patients' rights
1/17/98               Route 22 plan depends upon `good faith' accord
2/7/98                Local political parties play role in their own
                       decline
2/28/98               `Forgotten Holocaust' compels us to face evils
3/7/98                Allentown council forgets: taxpayers come first
4/4/98                Let's stick to truth in this round on fluoridation
5/2/98                Americans had better face the causes of violence
5/23/98               Parents hold keys to helping a troubled society
6/6/98                Conspiracy theories fit in with columnist's world
7/11/98               Moving van inspires thoughts on fate of city,
                       suburbs
7/25/98               Questions about difficult work of public safety
8/15/98               End President's crisis with honor, not punishment
9/26/98               Women's leaders, too, have been hurt by Clinton
10/24/98              Sprinkler-law debate and the value of a human life
11/7/98               3 GOP lessons: moderation, moderation, moderation
12/5/98               City has no right to help hospital take property
1/2/99                So-called `stadium bill' is bargain for
                       Pennsylvania
2/6/99                Non-partisan, regional demand: give us a U.S.
                       judge
3/6/99                Don't rush to judgment about five tragic deaths
4/3/99                Anti-growth suburbanites saying: `I've got mine!'
5/1/99                Parents, citizens have authority to make changes
6/5/99                Of crime, privacy rights and an exemplary citizen
6/12/99               Gov. Ridge's school reforms will offer choices
7/10/99               Those who love politics can watch this pot boil
7/24/99               Think of the farmers as grass turns dry and brown
8/14/99               Troubling results in poll on youth, government
8/21/99               Global warming based on faith, orthodoxy, not
                       facts
9/4/99                Local phone monopolies no good for consumers
10/2/99               PSU expansion is unfair to students, taxpayers
10/17/99              ASD is complacent about departed manager
11/6/99               These two improve the `Big Tent' by leaving it
11/20/99              Use technology to make trucks and highways safe
12/3/99               Urban renewal an inside-out, boot-straps kind of
                       endeavor
12/4/99               Conventional wisdom won't save Lehigh Valley
                       cities
12/18/99              Fair trade is only way for have-nots to catch up
                       to U.S.
1/8/00                Let's declare bigotry against everyone out-of-
                       bounds
1/29/00               Don't attack U.S. wage gap by punishing
                       productivity
2/12/00               Don't blame government for diesel, heating oil
                       prices
3/11/00               In deciding about death penalty, focus on fairness
                       first
3/18/00               Culling bad apples_fast_bolsters trust in the
                       police
3/25/00               Valley must practice civility, prepare for
                       benefits of growth
4/1/00                Some political reforms have degraded our democracy
4/29/00               Gaps in integrity have consequences_or they should
5/13/00               Attack on genetic engineering is politics, not
                       science
5/27/00               Decency limits drive to get reports on injured
                       executive
6/3/00                CD price-fixing, cyber-music and the tolerance of
                       theft
6/10/00               Union's clout made end-run necessary on schools
                       bill
6/17/00               It's wrong to force public schools to teach
                       creationism
6/24/00               Ethical lapses of Bill Gates undercut Microsoft in
                       court
7/1/00                TV reporter misled viewers on cause of JFK Jr.'s
                       crash
7/8/00                We can't go back to days of whale oil lamps, short
                       lives
7/15/00               The cost of a highway delayed, and a flawed
                       apology
7/22/00               Green Future Fund offers honest, durable
                       preservation
8/5/00                Best news is that most people favor end to `death
                       tax'
8/12/00               Gov. Bush's ability to connect will be winning
                       margin
8/19/00               End awkwardness with a new Puerto Rico plebiscite
9/2/00                California school results are victory for the
                       `melting pot'
9/9/00                Media bias explains Gov. Bush's inelegant thoughts
9/16/00               Honest politicians needed to deal with energy
                       crunch
9/30/00               Let's use all our tools to catch, punish the road
                       bullies
10/14/00              Gore's problem with the truth is a problem for us,
                       too
10/28/00              Let's remember that sometimes, the best law is no
                       law
11/11/00              GOP election less: be moderate on women's issues
11/18/00              Electoral College was part of Founders' compromise
11/25/00              Parents, schools should work together on
                       discipline
12/2/00               A Republican view: Why AI Gore is fighting so hard
12/16/00              U.S. has good fortune in its leaders, majesty of
                       system
12/23/00              Generous couple have blessed Lehigh Valley, nation
1/6/01                Integrity counts more than financial status in
                       public life
1/20/01               State testing can be a tool to help the schools
                       improve
1/27/01               Protesting of bioengineered foods is mostly
                       political
2/3/01                California gets what it deserves in electricity
                       shortages
2/10/01               In Clinton's last days, everyone's eyes were
                       opened
2/24/01               We must be able to talk to each other about the
                       schools
3/10/01               The scandal isn't in Florida, but in Clinton's
                       character
3/17/01               Remember: improvement plan must benefit all
                       children
3/24/01               A Republican argument for big U.S. tax cuts, right
                       now
4/7/01                ASD must focus more on teaching, less on fighting
                       state
4/21/01               Wise choices needed on energy supply, distribution
4/28/01               Don't let past errors foul next decision in
                       downtown
5/5/01                New energy policy: nuclear, conservation and
                       hydrogen
5/8/01                `Charles's choices' is list of picks in important
                       Valley primary races
5/19/01               On arsenic standards, Bush is just defusing a time
                       bomb
6/2/01                Don't let global warming become political shell
                       game
6/9/01                Jeffords' defection raises questions about party
                       labels
6/23/01               American drivers have a lot to learn from
                       Europeans
7/7/01                Untangle the politics and past, Beth Works is the
                       future
7/21/01               Cameras, high tech: Do they give police too much
                       power?
8/4/01                Traffic is here to stay and Route 22 plans are on-
                       target
8/25/01               Decisions on traffic, use of land: Whose interest
                       is saved?
9/1/01                Best office holders state their views, then stick
                       to them
9/13/01               United States has absolute right to bare Eagle's
                       talons in retaliation
9/22/01               Flags-on-buses flap is glimpse into academia's
                       values
9/28/01               Unidentifiable, armed marshals, secure cockpits
                       needed for air safety
10/20/01              Beads and pins are sure evidence of nation's
                       strength
11/5/01               Let terror-sponsoring states know costs for
                       continued terror attacks
11/10/01              Zealotry of any type runs counter to the American
                       spirit
11/18/01              Plaza at PPL Center opens door to a brighter
                       future for Allentown
11/24/01              End of reliance on imported oil will free U.S.
                       policies
12/8/01               Anti-terrorism measures do not threaten citizens'
                       rights
12/15/01              Philadelphia schools are problem for Lehigh
                       Valley, too
12/29/01              A little global warming won't be so bad for U.S.,
                       after all
1/7/02                State reapportionment benefits political parties
                       more than people
1/12/02               Wise leaders made good luck for Valley's economy
1/26/02               Speak up to get Pa. tort reform
2/9/02                Sorting out what happened at Enron
2/23/02               Governor is wise to spread out sacrifices
3/9/02                Speak up to save industrial museum
3/23/02               Sometimes, the law is not adequate
3/25/02               An electronic debate on education funding
4/8/02                World pressure must get Mideast foes talking
4/20/02               Virtual porn case was a test of values
5/4/02                Green Future Fund: an honorable option
5/18/02               Bush was right to reject ICC treaty
6/1/02                Bad bus behavior: what are the lessons?
6/15/02               Valley has stake in college's family feud
6/29/02               Come down hard on business criminals
7/13/02               Deeper trends are behind CEO scandals
7/27/02               U.S. regulators can learn from the British
8/10/02               Put the Arts Walk to work for Allentown
8/24/02               `Transnational' thinking threatens U.S.
9/7/02                Fair discrimination is a human strength
9/21/02               Multiculturalists threaten Melting Pot
10/5/02               Don't let scandals override the good
10/19/02              Liberals give bad advice on world crises
11/4/02               They were only victims of their own actions
11/16/02              Nov. 5 lesson: obstruction gets punished
11/30/02              A city needs its cherished institutions
12/14/02              Supreme Court must uphold free speech
12/28/02              Troubled city has an enlightened ally
1/11/03               The double standard for racism
1/25/03               Stop the bleeding, save the patient
2/8/03                Explore space, but with unmanned craft
2/22/03               U.S. must do right thing, not be popular
3/8/03                Why Toomey challenge is ill-advised
3/22/03               Outcome of Iraq war will raise stature of United
                       States
4/5/03                `War for oil' line doesn't square with market
                       realities
4/19/03               The `heartland' view and `the coasts' view
5/3/03                Allentown's voters must demand first-rate
                       leadership
5/17/03               Most important task in Iraq is achieving democracy



                   Bethlehem Sunday Globe Commentaries
                            By C. D. Snelling



4/3/83                Exploiting Human Frailty
4/10/83               Bad Information Riskier
4/17/83               Natural Gas Deregulation: A Free Market is
                       Sufficient
4/22/83               Navy Couldn't Ignore Cole's Defiance
4/24/83               Take An Early Morning Jog Through the Op-Ed Page
5/1/83                The Biased `News Filter'
5/8/83                Mack's Message to Industry
5/15/83               Selection of Judge Candidates: A Process in Need
                       of Revision
5/22/83               The Discipline of Foreign Trade
5/29/83               The Error of Direct Democracy
6/5/83                A Lesson in Deficits: Ten Dollars and Ten Bags of
                       Wheat
6/12/83               Prison System Still in Need of Change
6/19/83               I-78 Foes Should Pay the Costs
6/26/83               Offer Fingerprinting, But Don't Require It
7/3/83                Teach Our Teachers the Subject
7/10/83               Are Students to Blame?
7/17/83               Home-Bred Values are at Heart of Successful
                       Education
7/24/83               Modern Reasons for Optimism
7/31/83               Is Colonialism Obsolete?
8/7/83                Getting What You Pay For Also Applies to Public
                       Officials
8/14/83               Radical Politics Surfaces on the St. Lawrence
                       Seaway
8/21/83               Opposing a Radical
8/28/83               The Trashing of the President '83
9/4/83                Rethinking Lebanon
9/11/83               A Simple Lesson in Soviet Conduct
9/18/83               Handling the Soviets
10/2/83               Health Care Cost Crisis
10/9/83               Welfare and Initiative
10/16/83              Restoration Dilemma
10/23/83              Women Getting Mixed Signals
10/30/83              Legislative Pay Raise: Method Devious but
                       Understandable
11/6/83               Geopolitics a Nasty Game
11/13/83              Television Reporters Wage Continuing War on Reagan
11/20/83              A Main Course and Tidbits
11/27/83              A Growing List of Thanks
12/4/83               Orloski: Political Sour Grapes
12/11/83              Freeman Offered False Hope
12/18/83              Marital Rape: Making Fair Rules
12/25/83              The Grinch Subdued Again
1/1/84                Put End to Pa.'s LCB Mess
1/8/84                Now That Lt. Goodman is Home, Was Jesse Right?
1/15/84               In Search of the Village Mentality
1/22/84               Ma Bell Waits for Her Handsome Prince_Stay Tuned
1/29/84               Economic Literacy and Heating Oil Prices
2/5/84                Rep. Afflerbach's Solution Violates Rules of Fair
                       Play
2/12/84               Taxpayers and Labor Talks
2/19/84               Salvaging Lebanon
2/26/84               Time to Junk the Primaries
3/4/84                Balancing Cries of `Wolf' Against Real Danger
3/11/84               Banks Make Good Targets but Fees Can be Beneficial
3/18/84               Free Speech and Hypocrisy
3/25/84               Musings on a Sunny Day Deep in a Rt. 22 Traffic
                       Jam
4/1/84                A First Anniversary `Thank You'
4/8/84                A Free Marketeer's Election Choices
4/15/84               From Fat, Dumb and Happy to Equal Portions of Pain
4/22/84               Jackson Dismantling Demo Coalition
4/29/84               Frey vs. Stoutenburgh: a Tale of Wreckers and
                       Builders
5/6/84                A Civilized Plea for Libraries
5/13/84               Acting in Moral Accord with Lessons of the
                       Holocaust
5/20/84               Pay Not the Problem
5/27/84               Talking to Those Ignored by Political Polls and
                       Pundits
6/3/84                Debunking Liberal Beliefs on Minorities &
                       Segregation
6/10/84               Mondale's the Winner; Jackson and Hart Should Back
                       Off
6/17/84               What About Life Under the Soviets?
6/24/84               Hospitals Must Adopt Business Practices or Face
                       Failure
7/1/84                25-Cent Meters in Downtowns Long Overdue
7/8/84                `Seekers of Peace' Should Protest Soviet Bio-
                       Weapons
7/15/84               Nuclear Fears are Foolish
7/22/84               Apply Test of Fairness to Women
7/29/84               Consumerism Extreme May Endanger Vaccine
                       Production
8/5/84                Proposition One Attacks Budget Deficit
8/12/84               In This New Era, the Owners Won't Live Down the
                       Street
8/19/84               Big Bad Chemicals are Your Friends and Neighbors
8/26/84               Face-to-Face Encounters Help Republicans Cohere
9/2/84                Warm Milk? Quick, Hand Me That Asbestos Suit
9/9/84                A Squeaky Delegate Gets No Peace
9/16/84               Religion Debate Belies Constitutional Concerns
9/23/84               Ritter, O'Hare, the League and `Libbers': Two
                       Views
9/30/84               Reagan's Acts Are the Issue
10/7/84               Excuses for Beirut Embassy Bombing Won't Wash
10/14/84              No-Growth Nay-Sayers Block LV Economic Progress
10/21/84              Hysteria an Inappropriate Response to Child Abuse
10/28/84              Mack Trucks Strike Unlikely to Improve Job
                       Security
11/4/84               It Isn't Enough to Face the Nation; the President
                       Must Beat Press
11/11/84              When All Else is Equal, GOP Should Win in Future
11/18/84              Bishops' Letter Challenges Economic Inequality
11/25/84              Libel Suits Could Discourage `Vile' Abuses of
                       Media
12/2/84               Union Strife, Crooked Guards May Underly Prinson's
                       Problems
12/9/84               To Cut Deficit: Higher Taxes as Well as Spending
                       Cuts
12/16/84              County Politicians Preserve Antique Tax Collectors
12/23/84              Communists Discover Scrooge Knew His Economics
12/30/84              Crystal Balls Reveal What New Year Will Bring
1/6/85                Doonesbury: The Comic Strip That Isn't a Comic
                       Strip
1/13/85               Political Machinations Sometimes Come Home to
                       Roost
1/20/85               From the Wasteland Some Courageous Men Emerge
1/27/85               Helms' Takeover of CBS an Experiment in Free
                       Speech
2/3/85                Today's Prosperity Proves Conservatives Right
2/10/85               `Star Wars' Could Give Truth to `National Defense'
2/17/85               Fuel Co. an Innocent Victim in Misdirected Labor
                       War
2/24/85               Now is the Time for Good People to Run for Office
3/3/85                High Court Retracts its Support for States' Rights
3/10/85               Wish Steel Well, but Prepare for Non-Steel Economy
3/17/85               Don't Let a Few People Upset Progress for the Many
3/24/85               Pharmacists Try `Buy-Local' Campaign Against Steel
3/31/85               Decision on Waste Treatment Will be Far-Reaching
4/7/85                Democratic Party Smugly Wallows in Self-Delusion
4/14/85               U.S. Shouldn't Push Democracy on South Africa
4/21/85               PUC Decision on PP&L Will Cripple State's Economy
4/28/85               U.S. Appeasement Will Spawn Another Holocaust
5/5/85                Wages, Salaries are Better Left to the Marketplace
5/12/85               Taxing Corporations: An Unfair, Political Fiction
5/19/85               Scrap Income Taxes in Favor of a National Sales
                       Tax
5/26/85               When it Comes to Tax Reform, Confusion is King
6/2/85                Democrats Display Crude Power Politics at its
                       Worst
6/9/85                In the Primary, Bedrock Values Beat Party Politics
6/16/85               This Consumer Activist Knocked on the Wrong Door
6/23/85               Conserve Water_But Encourage Free Choice, Too
6/30/85               For Good of Everyone, Sometimes Hostages Must Die
7/7/85                In Lehigh Valley, the Benefits of Wealth are
                       Shared
7/14/85               Private Charity Preferable to Public
                       Redistribution
7/21/85               Bombs Protect the Freedoms of Confused Dissenters
7/28/85               Hold Your Nose if You Like, but Fasten that
                       Seatbelt
8/4/85                Get Solid-Waste Plant Soon, or Jobs will Drain
                       Away
8/11/85               Reluctant Developers are Forced to Accept Handouts
8/18/85               Society Must Protect Itself Against the Murderers
8/25/85               Political Party Distinctions get Hazy at the Edges
9/1/85                Samantha Smith: Pawn of Parents and Soviets
9/8/85                Gorbachev_Master of Political Propaganda
9/15/85               Renewal of Family Planning Services is Crucial
9/22/85               Democracy a Prescription for Disaster in S. Africa
9/29/85               Insurance Crisis Hurts Everyone_Except Lawyers
10/6/85               On Allentown School Board, Bad Drives Out Good
10/13/85              What Steel Doesn't Need in Its Struggle for
                       Survival
10/20/85              Network Coverage of Terrorism was Unpatriotic
10/27/85              Givebacks Could Save Mack Plant; `Moralizing'
                       Won't
11/3/85               Some Politicians Favor Business; Most Say They Do
11/10/85              Anti-Star Wars Springs from Politics, Not Science
11/17/85              Who's to Blame in the Miroslav Medvid Tragedy?
11/24/85              UAW is Throwing Mack Workers to the Wolves
12/1/85               LV Professor Propounds Marxist View of U.S. Goals
12/8/85               Gentrification of Allentown Area has Drawbacks
12/15/85              Some Hospitals Offer Better Care than Others
12/22/85              Local Health `Czars' Would Deny Consumers a Choice
12/29/85              Businesses Betray Market Ideals in Health Care
                       Field
1/5/86                School Board, City Charter were Saved Just in Time
1/12/86               Allentown and Bethlehem: A Tale of Two Downtowns



    The Chairman. Thank you, Mr. Snelling.
    Ms. Brown, the Return-of-Flight Task Group is conducting an
ongoing analysis of NASA's progress toward implementing the
recommendations of the Columbia Accident Investigation Board
report for NASA's return to flight. What do you see as being
key financial issues to consider in implementing
recommendations from that report?
    Ms. Brown. As you're aware from previous testimonies from
the Administrator, that we are in the process of reviewing the
recommendations and all the options and also looking at all the
recommendations and trying to cost them out, it has been very
difficult, at this point in time, going through each of the
options and being able to place costs associated with that, but
we are working toward that, and we will have something to you
guys very soon.
    The Chairman. What do you view as the key issues?
    Ms. Brown. Key issues would be International Space Station,
the costs associated with that, costs associated with the
hardware and software changes that we have to make, as far as
being able to return to flight and making the right decisions
with regards to what needs to be done to our shuttle, and
making sure that we have made the right decision in being able
to cost those out.
    The Chairman. Mr. Bhatia, beginning this fall, the United
States is going to begin negotiations with the European Union
which could lead to an open-skies agreement, something that's
been the subject of on and off negotiations for all the years
I've been a Member of this Committee. Do you think this a
realistic prospect in the near-term? And what do you think the
obstacles would be to attaining fully open skies over the
Atlantic? And, finally, do you think this breakdown in Cancun
last week has any impact on those negotiations?
    Mr. Bhatia. You're correct, Senator. The US/EU
negotiations, that were launched originally by President Bush
and President of the EU earlier this year, are going to begin
with formal sessions at the end of this month, and then another
session is scheduled for December. It is extremely difficult, I
think, to predict the prognosis for success there. We look
forward to these negotiations, because they do promise,
potentially, so much.
    The strategy that has been pursued not only by this
Administration, but by the last two Administrations before it,
of pursuing open skies on a country-by-country basis has
yielded benefits. At the same stage, there has always been this
tantalizing notion out there of being able to develop an open
transatlantic market, one that would multiply the benefits of
the open-skies arrangements several-fold. We will really have
to see, I think, based on the first set of discussions that we
have in October and then subsequent working sessions, what the
likelihood of success is.
    That said, I, personally, am very intrigued by this
possibility, and I look forward to spending a good deal of my
time working on trying to make it a success.
    The Chairman. Wasn't there a recent EU decision that would
probably change the whole aspect of this set of negotiations?
    Mr. Bhatia. I think you're probably referring to the
decision of the European Court of Justice from earlier this
year. I think that raised some initial concerns, perhaps on
both sides of the Atlantic. Quite frankly, I think when you
parse through the decision carefully, you see that the
decision, which was perceived to have stricken down or stricken
out parts of the bilateral agreements, really applied only to
very limited parts. I don't think it is a decision that's
likely to impede our US/EU negotiations. Indeed, one might
arguably credit that decision with giving the Commission the
mandate that it subsequently has used to commence these
discussions.
    Again, the prospect here of a truly liberalized bilateral
market between the U.S. and the EU, both very large markets, is
a source of great excitement to me and, I know, to Secretary
Mineta, as well.
    The Chairman. Mr. Snelling, there have recently been a
number of contract awards by MWAA that have been challenged.
Some of these have triggered investigations by the Department
of Transportation's Inspector General and the General
Accounting Office. In fact, a recent comprehensive GAO report
on the Authority's contracting practices showed that GAO found
that its contracting guidance does not adequately reflect
competitive contracting principles and is out of date in many
respects.
    I believe that the Board of Directors has a responsibility
in overseeing these practices. These are taxpayers' dollars,
and I hope that you will make it a priority to look into these
contracting practices, and that they are in keeping with the
overall governmental guidelines that all agencies of government
have to comply with. All right?
    Mr. Snelling. I assure you that I will, Mr. Chairman.
    The Chairman. Thank you, Mr. Snelling.
    Ms. Brown, I just want to go back one second to this issue
of implementing the recommendations of the Gehman Board, as its
better known. They didn't address, to any significant degree,
the costs--nor would I particularly expect them to; that wasn't
their charter--but don't you see that--would you agree that
some very tough decisions are going to have to be made, given
the fact that NASA's budget simply won't encompass all of its
missions as we envision them today, and then complicated by the
recommendations, which are all expensive, that the Gehman Board
has made?
    Ms. Brown. Yes, I definitely do agree with that, sir.
    The Chairman. So, to some degree, you're going to have to
be at the table--to a significant degree, you're going to have
to be at the table when some of these decisions are made,
because we can't afford everything.
    Ms. Brown. Exactly. And that's why I'm hoping that the
Committee will support my nomination and move it out
expeditiously so I can get there and be right there to help
make those decisions at this point in time.
    The Chairman. Good.
    Since we have a vote on----
    [Laughter.]
    The Chairman.--since we do have a vote on, and you can see
by the attendance here that all three of your nominations are
fraught with controversy----
    [Laughter.]
    The Chairman.--we will try to move your--we will move your
nominations as expeditiously as we can, which should not be a
very long period of time. Thank you for your willingness to
serve your country, and congratulations to you and your
families.
    Thank you. This hearing is adjourned.
    [Whereupon, at 2:52 p.m., the hearing was adjourned.]
                            A P P E N D I X

       Remarks by Hon. Rick Santorum introducing Charles Snelling
    Mr. Chairman, I am pleased to introduce Charles Snelling to the
Committee in connection with his nomination by President Bush to be a
Member of the Board of Directors of the Metropolitan Washington
Airports Authority.
    Mr. Snelling, a resident of Fogelsville, Pennsylvania, is an active
community leader in the Lehigh Valley and has a wide variety of
experiences in the private sector and in public life.
    His experience in the private sector includes involvement in
private venture capital activities, real estate investment and
development, and agricultural interests. Charles is a founder and
Director of the Northeast Pennsylvania Venture Fund, L.P., Northeast
Pennsylvania Venture Fund II, and Mid-Atlantic Venture Fund III. This
venture fund family is involved in leading seed and startup stage
venture investors.
    Charles also has experience in Federal service. In 1976, during the
Ford Administration, Secretary of Commerce Elliott Richardson appointed
him to the Commerce Technical Advisory Board. He was also appointed by
President Ford to the President's Commission on Personnel Interchange.
Later during the George H.W. Bush Administration, Charles was appointed
to the U.S. Small Business Administration's National Advisory Council.
    On the state level, Snelling was also appointed in 1995 by then-
Governor Tom Ridge to serve as Chairman of the Pennsylvania Aviation
Advisory Board. In addition, as a member of Governor Ridge's Keystone
Committee, he co-authored a report entitled Meeting Pennsylvania's
Challenges. Charles has also served as a Past President of The
Pennsylvania Society.
    Charles's experience as a leader in his community also includes
four years as President of the City Council of Allentown, Pennsylvania
and a regular commentary column on economic, political, and social
issues in the Allentown Morning Call newspaper and a weekly column in
the Bethlehem Globe-Times.
    In addition to service on numerous other boards, Charles is a
member of the American Association for the Advancement of Science, the
Franklin Institute and is listed in American Men of Science, Who's Who
in Finance and Industry, Who's Who in the East, and Who's Who in
American Politics.
    I am confident that Charles will be an excellent addition to the
Board of Directors of the Metropolitan Washington Airports Authority
and urge the Committee to quickly approve his nomination.
                                 ______

    Response to Written Questions Submitted by Hon. John McCain to
                            Gwendolyn Brown
    Question 1. What strategies should NASA use to facilitate maximum
communication between NASA and Congress to ensure that NASA's funding
needs are fully assessed and accurately communicated?
    Answer. In my current position as the Deputy Chief Financial
Officer for Financial Management, I have not had the opportunity to
work directly with the Congress on NASA's funding needs. As CFO, I
intend to change that. I will take a pro-active, hands-on approach and
I hope to develop close working relationships in order to enhance the
flow of communication and understanding between NASA, OMB and the
Congress.

    Question 2. In April of this year, the General Accounting Office
released a report on the Improvements Needed in Management of NASA's
Integrated Financial Management Program. The report stated that NASA
has not established an analytical capability to guide and constrain its
acquisition of the financial management system's commercial components.
It also states that in implementing core financial module components,
NASA has deferred addressing the needs of key system users, namely the
program managers. The GAO report further states that the agency is at
risk of making a substantial investment in a system that will fall far
short of its stated goal of providing meaningful and reliable
information to support effective program management and congressional
oversight.

  a.  Do you agree with GAO's assessment?

  b.  What is NASA doing to address GAO's findings and recommendations?

  c.  How much will NASA spend on this financial management system?

  d.  There are concerns that the development of this financial
        management system is focused too much on meeting a schedule.
        Similar findings were discussed by the investigation board of
        the Columbia accident concerning the Shuttle program. Do you
        believe that the emphasis on schedule may have caused some of
        the problems that GAO identified in its report?

    Answer 2a, b, c, d. As stated in our response to GAO's review,
which is included as an appendix to their report, the Integrated
Financial Management Program (IFMP) is scheduled to be implemented in a
modular fashion over the 2000-2006 period. (Those modules are: Position
Description, Resume Management, Travel Management and Core Financials
which are active as of today, ``Erasmus,'' our Executive Management
Information module, Budget Formulation, Asset & Project Management,
Contract Administration and Human Resources, which are scheduled to be
deployed individually over the next three years). At the time of the
GAO review, in December 2002, less than \1/3\ of the total modules had
been implemented. Core Financials, our most recent deployment,
completed less than 90 days ago, is focused on accounting, budget
execution and internal financial controls and funds management. Our
next module, scheduled for rollout in 2004, will address the Agency's
Budget Formulation needs and, once implemented, will indeed allow the
subsequent ``Planned vs Actual'' analysis, which is fundamental to the
Agency's cost estimation and program management functions. In addition,
our Project and Prograrn Management community will greatly benefit from
our forthcoming Asset and Project Management module, scheduled for
operation in the 2005-2006 timeframe.
    Previous unsuccessful efforts have shown us that trying to build
and deploy at once all functionality, satisfying all constituencies
immediately, carries an unacceptable degree of implementation risk.
This is why the Agency has decided to manage this Program based on a
detailed milestone plan emphasizing integration functionality and
individual module performance rather than abide to an artificial
installation completion deadline. The current and projected costs of
the IFM Program, which were presented and analyzed in the report NASA
delivered to Congress last spring, are still valid.
    Finally, given that the scope and planned functionality of the IFMP
is beyond just financial information, this system is truly an Agency-
wide initiative, ultimately touching every single function in our
organization, (currently no comparable capability exists in the Federal
Government). Therefore, the Administrator has decided to be directly
involved in overseeing all facets of the program (the IFM Program
Executive Officer is part of his staff and reports directly to him) to
make sure that we are not building ``an accounting system, for
accountants, by accountants.'' The financial functionalities that IFM
will bring to NASA in budget formulation and execution are critical,
but the IFM system will, when completed, significantly affect all the
core activities of our agency, including the programmatic and human
capital functions giving managers at all levels the detailed
information they need (and never had) to make more effective decisions
in a timely way.

    Question 3. The CAIB report raised concerns that scheduling
pressure had been a factor in Space Shuttle Columbia accident. The
report recommended that NASA ``adopt and maintain a Shuttle flight
schedule that is consistent with available resources.'' How will NASA's
implementation of this recommendation affect your plans as CFO for
budgeting and estimating the costs of the Shuttle program?
    Answer. We are in the process of exploring various options, all of
which have varying impacts on the NASA budget. As a financial manager,
it would be premature for me to answer this question until I have
reviewed the final options selected based on the recommendations and
made a definitive cost analysis and assessment. However, I believe that
rigorous oversight during budget formulation will be a critical part of
the process for the assessment of The Shuttle flight schedule and its
budget. Cost control and effective program management is important and
should be a continuous process to provide fiscal credibility that is so
critical to prudent management of scarce resources.

    Question 4. The International Space Station has incurred major cost
overruns over the years. Many times, the Congress was not notified of
these overruns until they reached some exorbitant amount. The truth is
that the cost overruns did not happen overnight and they represent, in
some cases, years of neglected reporting.

  a.  What do you plan to do to ensure that these cost overruns are
        tracked and reported in a timely manner to both NASA and the
        Congress?

  b.  As Chief Financial Officer, what steps do you plan on taking to
        ensure that the Space Station stays on budget and that other
        programs, such as the Space Shuttle, are not raided to meet
        these potential cost overruns?

    Answer 4a, b. NASA has taken significant steps toward ensuring that
the true costs associated with the ISS are justifiable. The Agency has
also implemented a new Core Financial System with controls in place
that clearly identify for the resource manager as well as the project
manager the disparity between cost and billings.
    First, NASA commissioned the review of the ISS cost by three
different groups--each working independently (DOD/CAIG, NASA
independent cost estimating group, and program managers estimate). Upon
review of each group's results, they were within ten percent of cost
that validated our estimate to Congress in order to bring the program
back in line.
    Next, as of July 2003, we have successfully implemented the Core
Financial Module of the Integrated Financial Management System at NASA.
The Core Financial Module is a key element, as it provides customary
execution data. We have also developed a reporting mechanism that
allows resource managers and program managers visibility into cost and
disbursements for a particular program. This provides up-to-date
information by which managers are able to control, monitor and report
to external entities costs as they relate to the ISS program.

    Question 5. Given the discussion about NASA's culture and its
effect on NASA management, including financial management, what are
your views of the need for cultural change at NASA?
    Answer. I am in complete agreement with the CAIB recommendation. As
this agency has been without a CFO for sometime, the culture and
leadership within this portion of the organization has suffered quite a
bit. I plan to restore the leadership and direction and will begin the
often difficult work of transformation of the financial management
culture. The financial management community is primed for change as we
continue to implement our suite of new business processes and systems
to better track NASA's budget and expenditures. I will provide the
needed leadership and work hand in hand with other leaders within the
NASA community to reframe this organization in order to meets its
mission ``to understand and protect our home planet, to explore the
universe and search for life, to inspire the next generation of
explorers . . . as only NASA can.''

                                  <all>
</pre></body></html>
